<html>
<title> - TRANSPORTATION RESEARCH AND DEVELOPMENT: APPLICATIONS AND OPPORTUNITIES IN THE DENVER REGION</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                      TRANSPORTATION RESEARCH AND
                     DEVELOPMENT: APPLICATIONS AND
                   OPPORTUNITIES IN THE DENVER REGION

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 4, 2004

                               __________

                           Serial No. 108-62

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


                    U.S. GOVERNMENT PRINTING OFFICE
94-016                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              NICK LAMPSON, Texas
NICK SMITH, Michigan                 JOHN B. LARSON, Connecticut
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
GEORGE R. NETHERCUTT, JR.,           BRAD MILLER, North Carolina
    Washington                       LINCOLN DAVIS, Tennessee
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
JUDY BIGGERT, Illinois               ZOE LOFGREN, California
WAYNE T. GILCHREST, Maryland         BRAD SHERMAN, California
W. TODD AKIN, Missouri               BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MELISSA A. HART, Pennsylvania        ANTHONY D. WEINER, New York
J. RANDY FORBES, Virginia            JIM MATHESON, Utah
PHIL GINGREY, Georgia                DENNIS A. CARDOZA, California
ROB BISHOP, Utah                     VACANCY
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama                   VACANCY
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
VACANCY


                            C O N T E N T S

                              June 4, 2004

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ken Calvert, Member, Committee on 
  Science, U.S. House of Representatives.........................     6
    Written Statement............................................     6

Statement by Representative Mark Udall, Member, Committee on 
  Science, U.S. House of Representatives.........................     7
    Written Statement............................................     8

                               Witnesses:

Guillermo V. Vidal, Manager, Public Works of the City and County 
  of Denver
    Oral Statement...............................................     9
    Written Statement............................................    11

Jayson Luber, Helicopter News and Traffic Reporter, 850 KOA Radio 
  and Channel 9 News
    Oral Statement...............................................    14
    Written Statement............................................    15

Carlos Hernandez, Transportation Planner, Charlier Associates, 
  Inc.
    Oral Statement...............................................    17
    Written Statement............................................    19
    Biography....................................................    23

Dr. JoAnn Silverstein, Professor and Chair, Department of Civil, 
  Environmental, and Architectural Engineering, University of 
  Colorado at Boulder
    Oral Statement...............................................    24
    Written Statement............................................    26
    Biography....................................................    42

Discussion.......................................................    42

 
TRANSPORTATION RESEARCH AND DEVELOPMENT: APPLICATIONS AND OPPORTUNITIES 
                          IN THE DENVER REGION

                              ----------                              


                          FRIDAY, JUNE 4, 2004

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 9:30 a.m., in the 
Broomfield City Council Chambers, Broomfield Municipal Center, 
One Descombes Drive, Broomfield, Colorado. Hon. Ken Calvert 
presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                      Transportation Research and

                     Development: Applications and

                   Opportunities in the Denver Region

                          friday, june 4, 2004
                          9:30 a.m.-11:30 a.m.
                    broomfield city council chambers
                      broomfield municipal center
                          one descombes drive
                          broomfield, co 80020

Purpose

    On Friday, June 4, 2004 at 9:30 a.m., the Subcommittee on 
Environment, Technology and Standards of the Committee on Science will 
hold a hearing on Transportation Issues in Colorado with a focus on the 
Region of Denver: Research Applications and Opportunities.
    Every six years Congress authorizes expenditures for the Nation's 
surface transportation projects. While the Transportation and 
Infrastructure Committee has primary jurisdiction over most of the 
programs in this area, the Committee on Science has oversight and 
legislative jurisdiction over the research, development and 
demonstration programs.
    The R&D programs are in Title V of the transportation bill. Most of 
the funds for these programs are authorized for appropriation out of 
the highway trust fund ($468 million in FY03). There are seven broad 
categories of transportation R&D: 1) Surface Transportation Research; 
2) Technology Deployment; 3) Training and Education; 4) Bureau of 
Transportation Statistics; 5) Intelligent Transportation Systems (ITS) 
Standards, Research, Operational Tests, and Development; 6) ITS 
Deployment; and 7) University Transportation Research.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Transportation Issues in the Denver Region

    Between 1985 and 1995, traffic on Colorado's highways, particularly 
on the interstate highways, increased by 43 percent. By 2000, the Texas 
Transportation Institute ranked the Denver area the seventh most 
congested metropolitan area in the country. The interchange at I-25 and 
I-225 in the southeast corridor was ranked the 14th busiest in the 
Nation.
    The area known as the southeast corridor connects two major centers 
of employment in Denver, the Denver Central Business District 
(downtown) and the Southeast Business District which includes the 
Denver Tech Center. The Denver Tech Center developed in the early 1980s 
continued to expand and to encourage other development in the area 
south of Denver. Over the past decade the southeast area of Denver has 
been among the fastest growing areas in the country. Growth in the 
outlying communities surrounding Denver has also been substantial. 
While this has brought many benefits, traffic congestion and delays 
have increased and as in other areas, vehicle miles traveled has grown 
faster than population.
    Communities in the mountains have expanded along with their 
tourism-based economies. Skiing, golfing, hiking and other outdoor 
recreational activities have drawn increased numbers of tourists and 
year-round residents to these communities. The major route connecting 
tourists to these resort areas is I-70 which has become increasingly 
congested over the past decade. In addition, when snowstorms, 
avalanches, rock slides or accidents occur along I-70--which happens 
frequently--this arterial shuts down for hours, dramatically impacting 
the economy of Colorado's western communities as well as the movement 
of interstate commerce.
    The desire to maintain the environmental amenities that draw people 
to the region and the need to maintain mobility of people, goods and 
services is placing an increasing strain on the current transportation 
system. This is leading communities in these areas to look at multi-
modal solutions to their transportation problems. These include 
expansion of existing interstate capacity, expansion of mass transit, 
and increased bicycle and pedestrian networks.
    Current transportation projects in the Denver area include the 
Transportation Expansion Project (TREX) and the Downtown Multi-modal 
Access Plan (DMAP).
    The TREX project began construction in 2001 and will be completed 
in 2006. The project is located in the southeast corridor. TREX is a 
multi-modal project that includes widening of Interstate 25, the major 
north-south route through Denver, and a light rail line. The project 
requires cooperation between CDOT which is responsible for the highway 
widening portion of the project, DCOG the metropolitan planning 
organization for Denver, and the Regional Transportation District (RTD) 
which is responsible for the light rail portion of the project. The 
TREX project is funded through several sources including federal 
transportation funds provided to Colorado.
    The Downtown Multi-modal Access Plan is a new project of the 
Department of Public Works. The 25-year plan will include proposals for 
vehicular, pedestrian, bicycle and rail access into and throughout 
Downtown Denver. It will also include long-term land-use planning, 
infrastructure and other elements that will connect downtown Denver to 
the adjacent communities. DRCOG, CDOT, and RTD are all involved in this 
planning exercise with the city and county of Denver.

Witnesses: Their Backgrounds and Institutions

Mr. Guillermo Vidal, Manager of Public Works--Denver:

    Mr. Vidal is the current Manager of the Department of Public Works 
for the City and County of Denver. Prior to his current position he 
served as Executive Director for the Denver Regional Council of 
Governments. Mr. Vidal also served as the Director of the Colorado 
Department of Transportation (CDOT) under Governor Roy Romer.
    The Department of Public Works is responsible for all road 
maintenance and repair and for waste management and storm drainage 
systems in the city and county of Denver. The Department manages design 
and construction of streets, bridges, and public buildings. 
Transportation services include parking management, transportation 
planning, and engineering.
    The Denver Council of Regional Governments (DRCOG) is the 
metropolitan planning organization for the Denver region. It is a 
voluntary association of 50 county and municipal governments in the 
Denver area. Member counties include Adams, Arapahoe, Jefferson, 
Gilpin, Clear Creek, Broomfield, Boulder, Douglas, and Denver. DRCOG 
address issues including growth and development, transportation, 
services for senior citizens, environmental issues, and performs 
analyses of economic and development trends.
    The Colorado Department of Transportation is responsible for the 
9,142 miles of highway throughout the State of Colorado. Ten percent of 
these highway miles are part of the Interstate highway system, but they 
account for forty percent of the highway travel in Colorado. CDOT also 
supports aviation throughout the state with grants to local airports 
through the Division of Aeronautics. CDOT's Transit unit assists the 
transit systems throughout the state.
    Mr. Vidal will provide an overview of transportation issues in 
Colorado with a focus on challenges in the Denver region. He will 
discuss the linkage between the state and federal transportation 
research and development enterprises and the application of 
transportation research to conditions in Colorado.

Mr. Jayson Luber, 850 KOA Helicopter News/Traffic Reporter:

    Mr. Luber has served as the Helicopter News/Traffic Reporter for 
the Denver radio station, 850 KOA since May of 2001. Mr. Luber reports 
on traffic conditions in the Denver area to commuters during the 
morning and afternoon. Mr. Luber also reports for 9NEWS, the National 
Broadcasting Corporation affiliate in the Denver area.
    Mr. Luber will discuss the areas with recurring traffic problems in 
the Denver region and the factors that contribute to traffic delays 
during commuting times.

Mr. Carlos Hernandez, Charlier Associates:

    Mr. Hernandez is a transportation planner who has worked for 
Charlier Associates since 1998. Mr. Hernandez has experience in local 
and regional multi-modal transportation planning projects with 
expertise in transportation plan development, multi-modal 
transportation integration, trail design, and GIS development.
    Mr. Hernandez has worked on a variety of projects in Colorado 
including: mapping of existing bicycle facilities in the U.S. 36 
corridor to identify gaps in the existing trail system and conducting a 
peer study for the Colorado Department of Transportation to evaluate 
the relationship between land use patterns and passenger rail systems.
    Charlier Associates, Inc. is a multi-modal transportation planning 
firm that has been based in Boulder, CO since 1993. Charlier 
specializes in the use of innovative approaches to improving mobility. 
Their clients include states, towns, cities, counties, regional 
agencies and transit service providers. Charlier has worked extensively 
with medium-sized cities to develop transportation programs that 
address the specialized needs of mountain communities with tourism-
based economies.
    Mr. Hernandez will discuss the transportation issues Charlier 
Associates' clients have hired them to address. He will also identify 
areas of research needed to better enable his firm to address the 
transportation challenges identified by his clients.

Dr. JoAnn Silverstein:

    Dr. Silverstein is the Chair of the Department of Civil, 
Environmental & Architectural Engineering at the University of 
Colorado. Dr. Silverstein is a civil engineer with expertise in 
environmental engineering. The Department has considerable experience 
doing research on transportation systems. Over the past five years, the 
Department has done over 50 independent projects. They have been funded 
at approximately $1.5 million per year over this time period.
    Currently the University is developing a proposal for a Center for 
Applied Integrative Research in Transportation. The Center would bring 
together resident researchers, professors, and special outside experts 
to work on surface transportation issues in partnership with local 
government and industry. The broad themes the Center would address 
include: Transportation Security, Infrastructure Safety and 
Maintenance, and People, Energy, and Environmental Sustainability.
    Dr. Silverstein will discuss the past and present transportation 
research and development at the University of Colorado and the proposal 
for the new transportation research center.
    Mr. Calvert. Good morning. Welcome to today's hearing, 
``Transportation Research and Development: Applications & 
Opportunities in the Denver Region.'' My name is Ken Calvert. 
I'm a senior Member of the House Science Committee. I used to 
chair the Energy and Environment Subcommittee. I represent the 
44th District of California, including Riverside and Orange 
Counties. I am pleased to be here in the Denver area with my 
friend, Mark, and I am looking forward to hearing from today's 
distinguished panel.
    I am flying to Los Angeles this afternoon, so I know first 
hand about congestion. As a matter of fact, I was talking to 
Mr. Luber. He was saying that you were number 4, number 5.
    Mr. Luber. Three.
    Mr. Calvert. Number 3. Well, I'm from the number 1 area in 
the country, you know so I know what traffic congestion is all 
about, so I understand the frustration of traffic congestion. 
And according to the Texas Transportation Institute, L.A. Is 
ranked number 1 in total delay and in delay per person caused 
by congestion, and many other areas, of course, in Southern 
California are on top of that list. So it will probably take me 
longer to get from LAX to West L.A. Than it would for me to get 
halfway across Colorado. So I appreciate though that traffic is 
a tremendous problem.
    Congestion is crippling many metropolitan areas across the 
country, causing people to waste time that could be spent with 
families; and businesses to lose money in delays and at times 
making our roads more dangerous. Addressing congestion is 
crucial to improving the quality of life, driving economic 
growth, and creating safer roads. Research and development is 
crucial to understanding how to alleviate congestion, and the 
Science Committee authored legislation to fund surface 
transportation research and development. We are now working 
with our colleagues in the Congress to make sure that research 
and development is appropriately funded in the final 
transportation bill.
    I am looking forward to hearing from our witnesses today 
about how research and development can help address congestion 
in our transportation system, and how the state, county, and 
local governments are able to use federally funded research to 
reduce congestion here in the Denver area.
    I certainly welcome this distinguished panel, and I'm 
looking forward to your testimony. But before we do that, I'm 
going to turn to Mr. Udall for his opening statement and 
introduce some special guests. And I want to thank him for 
inviting me here and for the hospitality of this region. And 
with that, Mr. Udall, you may have your opening statement.
    [The prepared statement of Mr. Calvert follows:]

            Prepared Statement of Representative Ken Calvert

    Good morning. Welcome to today's hearing, ``Transportation Research 
and Development: Applications & Opportunities in the Denver Region.'' I 
am Ken Calvert, a senior member of the House Science Committee, and I 
represent the 44th district of California, including Riverside and 
Orange Counties. I am pleased to be here in the Denver area, and am 
looking forward to hearing from today's distinguished panel.
    I am flying to Los Angeles this afternoon, so I know first hand 
about congestion. According to the Texas Transportation Institute, the 
Los Angeles area was ranked 1st in 2001 in total delay and in delay per 
person caused by congestion. Many other areas in California also fall 
near the top of this list. It will probably take me longer to get from 
LAX to West L.A. this afternoon than it would take to drive half way 
across the State of Colorado.
    Congestion is crippling many metropolitan areas across the country, 
causing people to waste time that could be spent with families, 
businesses to lose money in delays, and at times making our roads more 
dangerous. Addressing congestion is critical to improving quality of 
life, driving economic growth, and creating safer roads.
    Research and development is critical to understanding how to 
alleviate congestion, and the Science Committee authored legislation to 
fund surface transportation research and development. We are now 
working with our colleagues in Congress to make sure that research and 
development is appropriately funded in the final transportation bill.
    I am looking forward to hearing from our witnesses today about how 
research and development can help address congestion in our 
transportation system, and how State, county and local governments are 
able to use federally-funded research to reduce congestion here in the 
Denver area.
    I welcome the distinguished panel before us, and I look forward to 
your testimony. Now I will turn to Mr. Udall for his opening statement.

    Mr. Udall. Thank you, Chairman Calvert. I did want to begin 
by acknowledging the time you've taken out of your busy 
schedule to join us here for this important field hearing. And 
I do understand the challenges the Los Angeles region faces but 
hopefully we're not too far behind you that we cannot learn 
from what you've been able to put in place and what 
opportunities we have here.
    I did want to also thank the City of Broomfield and my good 
friend, Mayor Karen Stuart, who's here on behalf of the City of 
Broomfield, and it's my great privilege to represent the City 
and County of Broomfield and we know and we'll hear later about 
the good work you've done here, Mayor, when it comes to the 
36th corridor and your traffic and transportation needs within 
your wonderful county and city.
    Let me turn to my statement, if I could, at this point. 
When I return to Colorado every week, I normally hear from 
people about problems with traffic congestion. I experience 
them firsthand as I travel to events and meetings along I-70 in 
the mountains and throughout the Northern Denver-metro area 
which is my congressional district. I mentioned the Denver-
Boulder turnpike, which is my most frequently traveled route, 
and it is especially congested at times, as all of you here, 
and all of you watching on the television know. And that is why 
communities along the corridor have been working together to 
plan for a mix of much needed transportation improvements 
including bus-rapid-transit, commuter rail and bike paths.
    However, our area is not unique in experiencing problems 
with congestion. It is widespread throughout, as Mr. Calvert 
mentioned, metropolitan areas of the country. Despite increased 
investments in highway infrastructure, we are not making, in my 
opinion, sufficient progress in easing the problems.
    We need to continue to invest in improving our 
transportation system and we will need to expand the capacity 
of our highways. But we are not going to be able to simply 
``build'' our way out of this problem. We need to use our 
current highway system more efficiently, improve our 
transportation planning, and develop highway materials that 
last longer and require less maintenance. Research is the only 
way that we are going to develop the solutions to these types 
of problems.
    In 1991 with the passage of ISTEA, we began to devote a 
significant amount of transportation monies to research. These 
research programs have yielded a number of successes, but we've 
also had some misses. From what I understand, many of the 
misses are due to the lack of a holistic approach to our 
transportation systems and not giving human factors and 
socioeconomic issues sufficient consideration.
    I believe that the public needs a greater role in 
transportation planning in the early stages. We need to 
creatively utilize and link all modes of transportation 
including bicycle and pedestrian modes, and to focus on 
expanding mobility, not just infrastructure. We also need to 
develop new technologies that might allow us to use our highway 
system more efficiently. I'm concerned that human factor and 
socioeconomic considerations are not given adequate 
consideration and are not integrated sufficiently into our more 
traditional transportation R&D efforts.
    We need more investment in the transportation system. 
However, we all recognize the list of desirable projects 
exceeds our current ability to pay for them. We need to ensure 
that the investments we make will provide us the greatest 
mobility for the money. We want to maintain the beautiful 
scenic landscapes that make Colorado famous and to ensure that 
we have the ability to access them efficiently and safely.
    We are privileged to have a panel of witnesses with a broad 
range of experience with transportation issues in Colorado. 
Again, I want to thank you all for taking time from your busy 
schedules to appear before the Committee this morning. And I 
look forward to your testimony and to hearing your perspectives 
on how best to keep the citizens of Colorado moving. Again, I 
want to thank Mr. Calvert for joining us today.
    [The prepared statement of Mr. Udall follows:]

            Prepared Statement of Representative Mark Udall

    Thank you all for being here this morning. I would like to welcome 
my colleague from southern California, Representative Ken Calvert to 
Colorado, who is chairing the hearing this morning. Thank you very much 
for being here today. I hope you did not encounter any transportation 
problems we will be hearing about on your way to the hearing this 
morning.
    Each week when I return to Colorado, I not only hear from people 
about problems with traffic congestion, I also experience them 
firsthand as I travel to events and meetings along I-70 to the 
mountains and throughout the Denver-metro area's northern communities. 
The Denver-Boulder turnpike, which is my most frequently traveled 
route, is especially congested at times. That is why communities along 
this corridor have been working together to plan for a mix of much 
needed transportation improvements, including bus-rapid-transit, 
commuter rail and bike paths.
    However, our area is not unique in experiencing problems with 
congestion--it is widespread throughout the metropolitan areas of the 
country. Despite increased investments in highway infrastructure, we 
are not making sufficient progress in easing the problems.
    We need to continue to invest in improving our transportation 
system and we will need to expand the capacity of our highways. But we 
are not going to be able to simply ``build'' our way out of this 
problem. We need to use our current highway system more efficiently, 
improve our transportation planning, and develop highway materials that 
last longer and require less maintenance. Research is the only way that 
we are going to develop the solutions to these types of problems.
    In 1991 with the passage of ISTEA, we began to devote a significant 
amount of transportation monies to research. These research programs 
have yielded successes, but we've also had some misses. From what I 
understand, many of the misses are due to the lack of a holistic 
approach to the transportation system and not giving human factors and 
socioeconomic issues sufficient consideration.
    I believe that the public needs a greater role in transportation 
planning in the early stages. We need to creatively utilize and link 
all modes of transportation including bicycle and pedestrian modes and 
to focus on expanding mobility, not just infrastructure. We also need 
to develop new technologies that might allow us to use our highway 
system more efficiently. I'm concerned that human factor and socio-
economic considerations are not given adequate consideration and are 
not integrated sufficiently in our more traditional transportation R&D 
efforts.
    We need more investment in the transportation system. However, we 
all recognize the list of desirable projects exceeds our current 
ability to pay for them. We need to ensure the investments we make will 
provide us the greatest mobility for the money. We want to maintain the 
beautiful scenic landscapes that have made Colorado famous and to 
ensure that we have the ability to access them efficiently and safely.
    We are privileged to have a panel of witnesses with a broad range 
of experience with transportation issues in Colorado. I thank you all 
for taking time from your hectic schedules to appear before the 
Committee this morning. I look forward to your testimony and to hearing 
your perspectives on how best to keep the citizens of Colorado moving.

    Mr. Calvert. I thank the gentleman.
    We'll now introduce our witnesses for today's hearing. 
Before I introduce the witnesses, we have a clock here, the 
five-minute clock. We try to keep the testimony to five 
minutes. That way, it gives us plenty of time for questions and 
answers. Also, a yellow light will come on and give you some 
indication. So with that, I'll introduce our witnesses for 
today's hearing: Mr. Guillermo Vidal is the Manager of the 
Public Works of the City and the County of Denver; Mr. Jayson 
Luber is a helicopter news and traffic reporter for the Denver 
radio station, KOA; Mr. Carlos Hernandez is a transportation 
planner who works for Charlier Associates; and Dr. JoAnn 
Silverstein is Chair of the Department of Civil, Environmental, 
and Architectural Engineering at the University of Colorado. I 
certainly thank you for coming today.
    Mr. Calvert.And we'll start off with Mr. Vidal. You're 
recognized for your opening statement.

 STATEMENT OF GUILLERMO V. VIDAL, MANAGER, PUBLIC WORKS OF THE 
                   CITY AND COUNTY OF DENVER

    Mr. Vidal. Good morning Mr. Chairman. Congressman Udall, 
it's nice to see you again. My name is Guillermo V. Vidal, I 
serve as a member of the Cabinet of Mayor John Hickenlooper in 
the role of Manager of Denver Public Works for the City and 
County of Denver. I am extremely honored and privileged to be 
in front of you today to give this testimony and I appreciate 
you taking the time to hear it.
    I present somewhat of a unique perspective because of the 
various roles that I've served throughout my career. I've seen 
these issues from being--I've worked for the Colorado 
Department of Transportation for 23 years, serving as Director 
my last five years there. I spent five years then as Executive 
Director of the Denver Regional Council of Governments for the 
Metropolitan Planning Organization, and now as a Manager of 
Public Works for the city.
    I think it gave me a unique perspective--perhaps it shows 
that I can't hold a job for very long--but it does give me the 
perspective that I see this from all sides. And I thought what 
I would talk about is that part of the issue in trying to talk 
about research is, maybe try and understand why, in spite of 
all the money that we have been spending on trying to deal with 
congestion, we're still not resolving that. And I think part of 
it is because in most metropolitan areas, you usually have 
three or four separate agendas going on.
    One is the DOT who focuses on maintaining the existing 
highway structure and deals with congestion with the focus on 
the motorists' ability to go from point A to point B on a 
particular corridor as fast as they can. And although this is 
great for traffic operations, it doesn't balance well with land 
use decisions or the use of transit that is so important in 
metropolitan areas.
    Then next to the DOT is the agenda of the transit agencies 
who, of course, are advocates for transit. And although transit 
tends to be a little bit friendlier to land use, we usually end 
up having competing agendas between transit and highways.
    Following that is the agenda of the MPOs who normally try 
to view transportation for the region for consistent 
connectivity as well as multi-modality. However, they tend to 
look at things in the 20-year vision. I mean, I spent five 
years of my career with Dr. Cox so I think this is a good way 
to look at it. However, the MPOs have very little authority in 
implementing plans, and they leave any certainty of 
implementing long range plans up to the voluntary efforts of 
each individual jurisdiction.
    And so even though they look at things regionally and 
multi-modally, it doesn't necessarily guarantee that that will 
happen.
    Last but not least is the agenda of the cities and 
counties. And although they value mobility and congestion 
relief, they don't feel that the motorists on the corridors 
have a greater right than the citizens who live alongside the 
corridors. So this means they will support transportation 
decisions that don't sacrifice the quality of life of their 
neighborhoods or destroy their businesses. And they also tend 
to favor the solutions that help economic development.
    Where this breaks down, I think, here in Colorado is that 
we're really left to the agenda of the implementing agencies 
because normally, since they have the money to implement, their 
agenda is going to rule. And even though we have things like 
the need for a process to determine alternative selection, the 
implementing agency can even influence this decision by 
limiting the budget tied to projects. So I think what's 
happening is that we have an imbalance in transportation 
planning.
    I think we have the unfortunate situation right now in the 
Denver region. It's that our economy is not doing well, the 
state economy is not doing well, and we find that CDOT gives a 
priority to maintenance of the entire state system over 
relieving congestion in the urbanized areas. So that means that 
most of the dollars are going to the rural areas where the 
largest inventory of miles is, and we're left in the urbanized 
areas to solve our congestion problems by either taxing 
ourselves regionally or tolling. And both of these just add a 
greater burden to the transportation costs of urban citizens.
    Anyway, this leads me to points about what to research. I 
think we should establish congestion performance measures that 
can help articulate goals to be achieved in congestion relief, 
just like we do for maintenance of our bridges where we have 
maintenance performance measures.
    Number 2, we should establish transportation measures that 
reflect the movement of people and goods as opposed to only the 
movement of cars and trucks. Cars and trucks have to move but 
that's ``a'' way of moving people and goods, not ``the'' only 
way.
    Number 3 is to develop methods to integrate transit and 
highway planning. We got to stop competing between these two 
modes.
    Number 4, establish methods that integrate transportation 
planning and land use. This can't be done in the vacuum.
    And then 5 is, we really need to look at how do we 
establish true joint resource allocation as articulated in TEA-
21 so that there's truly a partnership that takes into account 
things such as contribution to the funding pot and measures 
people as--it takes into consideration people as well as miles.
    Six, I would say, not all miles of the highway system 
should be considered equal. Different maintenance standards 
should be investigated to be established on different kinds of 
roads, and again you have more detail on that.
    I'm going to just get to my last suggestions on research. 
It seems that I got the red light. I think we also should look 
at establishing best practices and send us those strategies and 
encourage people to use alternative modes of transportation 
during the peak traffic period.
    Number 2, we should establish an incentive for businesses 
that have encouraged their employees to change their traveling 
patterns during peak periods. In other words, what can be done 
to encourage business to implement tele-commuting, flexible 
work hours, car pooling and so on.
    Three, establish measures and standards for traffic demand 
management strategies. So how do we measure these strategies? 
How do we incorporate them into the regional transportation 
plan? Right now it's a marketing process. It's not really a 
strategy to use for transportation solutions. Establishing 
determined best practices for dealing with freight movement in 
metropolitan areas: Should we take them out during peak 
periods? Should we provide special lanes for truck movement and 
so on?
    And then, last but not least, serious evaluation should be 
done to determine the success of toll roads and hot lanes that 
have been established since the passage of ISTEA. And I just 
conclude with them when they say, ``That's what's being 
proposed for us in the metropolitan area as our solution for 
congestion.'' And frankly it's not like there's a great track 
record for these facilities around the country in the last 
decade or so. You know, toll roads that were established back 
east 30, 40 years ago are working well but new ones and hot 
lanes aren't necessarily even paying their own way.
    So let me stop with that. I'm certain you have a lot more 
detail on that. I realize I went a minute or two over my time, 
but I appreciate your listening to my testimony.
    Mr. Calvert. I thank the gentleman.
    [The prepared statement of Mr. Vidal follows:]

                Prepared Statement of Guillermo V. Vidal

    Good morning Mr. Chairman and Members of the Committee. My name is 
Guillermo V. Vidal, I serve as a member of the Cabinet of Mayor John 
Hickenlooper in the role of Manager of Denver Public Works for the City 
and County of Denver. I am extremely honored and privileged to be 
invited to testify in front of you today regarding this very relevant 
topic.
    I believe I present a very unique perspective because of the 
various roles I have served in throughout my career. I have seen these 
issues from the State level as the Executive Director of the Colorado 
Department of Transportation, as the Executive Director of the Denver 
Regional Council of Governments (the local Metropolitan Planning 
Organization), and now under my current role with the City of Denver. 
Although there has been substantial investment in highway 
infrastructure and traffic management technologies, we are still having 
troubles recognizing the unique problems of the urbanized areas and 
therefore congestion and traffic delays continue to worsen. I believe 
the reason for this has to do with the differing agendas and goals of 
the various organizations that are involved in planning and funding 
transportation projects. The DOT is usually focused on maintaining the 
existing highway infrastructure. However, in dealing with congestion, 
they focus on the motorists' ability to go from point ``A'' to point 
``B'' on the particular corridor as fast as they legally can. Although 
this vision may be an excellent one for traffic operations, it does not 
balance well with the land use decisions or the use of transit that is 
so imperative for healthy metropolitan areas.
    Next to the DOTs are the transit agencies whose agenda is focused 
around the operations and development of transit. Although this agenda 
is more supportive of the regional and local land use plans, it is 
often viewed as a competing agenda to that of highways. This agency in 
Denver is the Regional Transit District (RTD).
    Following is the agenda of the MPOs who normally try to view 
transportation for the region for consistent connectivity as well as 
multi-modal. In Denver, DRCOG, in partnership with their member 
governments, created Metro Vision. This is a twenty year vision for the 
region that tries to incorporate and integrate transportation and land 
use planning. I believe this is the right way to look at transportation 
planning, unfortunately the MPOs have little authority in implementing 
these plans, leaving any certainty of implementing long range plans 
strictly up the voluntary efforts of each individual jurisdiction or 
State agency.
    Last but not least is the agenda of the cities and counties. 
Although they value mobility and congestion relief, they do not feel 
the motorist on the corridor have a greater right than their citizens 
who live along side of those corridors. This means they will support 
transportation decisions that do not sacrifice the quality of life of 
their neighborhoods or destroy their businesses. They also tend to 
favor those solutions that help economic development. This translates 
into support for decisions that will allow people to easily get and 
stay in their communities rather than just drive through them.
    Where all this breaks down is that little exists in the process 
that allows either the MPOs or the communities themselves to truly 
influence the selection of projects or alternatives on their various 
corridors or communities. Although there is the NEPA process to 
determine alternative selection, the implementing agency can influence 
the decision of the selected alternative by limiting the budget tied to 
the project. Additionally, on the project selection process, the MPOs 
and the local governments only provide input to the process, leaving 
the decision making process entirely in the hands of the implementing 
agency. The final result is that the agenda of the implementing agency 
ends up ruling the day since they have unilateral control of most of 
the funds.
    In Colorado, the unfortunate situation the Denver Region finds 
itself in is that the CDOT has given priority to maintenance of the 
entire state system over relieving congestion in the urban areas. This 
means that most of the dollars end up fixing the large inventory of 
miles which tend to be in the rural areas, while the urban areas are 
left to solve their congestion problems by either taxing themselves 
regionally or tolling. Both of these add a greater burden of the 
transportation costs to urban area citizens.
    The areas that I would recommend be investigated to improve 
planning and evaluation tools are the following:

        1)  Establish congestion performance measures that can help 
        articulate goals to be achieved by the DOTs as well as to 
        define the problem. This would be similar to a pavement or 
        bridge management system that are being used to establish 
        maintenance goals as well as funding levels by the DOTs. We 
        need similar goals and funding levels to be established for 
        congestion relief.

        2)  Establish transportation measures that reflect the movement 
        of people and goods as opposed to only the movement of cars and 
        trucks. Although the movement of cars and trucks is important, 
        we need to remember that this is only one method of moving 
        people and goods. Unfortunately, we are stuck with using 
        traffic measures such as Average Daily Traffic (ADT) as the 
        only congestion measure therefore, our solutions tend to be 
        highway oriented in order to address this car congestion.

        3)  Develop methods to integrate transit and highway planning. 
        We need to stop making these modes compete with each other and 
        begin to treat them as necessary solutions to urban area 
        problems.

        4)  Establish methods that integrate transportation planning 
        and land use planning. In order to do this we need to first of 
        all understand what kind of land use is promoted by each kind 
        of transportation solution so that we can determine the pros 
        and cons of each one. Ultimately, neither planning can be done 
        in a vacuum.

        5)  Develop methods that truly enable joint resource allocation 
        between the DOTs and MPOs/local governments. Although everyone 
        recognizes that maintenance of the system is important, good 
        balance needs to be maintained between maintenance, safety and 
        congestion relief. In order to assure this balance, 
        contribution to the funding needs to be considered as part of 
        the resource allocation factors. This is similar to the 
        ``Minimum Guarantee'' that is established in the Federal 
        Transportation Legislation TEA-21. In other words, in order to 
        be more directly responsive to the people who contribute to the 
        funding as opposed to being only responsive to the number of 
        lane miles, resource allocation processes should be established 
        to weigh into any formula the contribution to the funding 
        stream by the citizens of an identified planning region.

        6)  Not all miles of the state highway system should be 
        considered equal. Different maintenance standards should be 
        investigated to be established on different kind of roads. 
        Heavily congested roads should have different priority and 
        maintenance standards than lower congested roads. Farm to 
        market roads should have a different standard than low volume 
        rural roads. Truck routes a different standard than non truck 
        routes. The bottom line is that even if maintenance is 
        considered more important than congestion relief, perhaps this 
        decision can be limited to only the maintenance of key roads as 
        opposed to the maintenance of all roads.

    Unfortunately, the cities, counties and MPO have very little role 
in the research agenda for the Colorado DOT or even at the federal 
level. Although we may be provided input, the ultimate choice is the 
DOTs. Additionally, both the Federal Highway Administration (FHWA) and 
the Federal Transit Administration (FTA) cater to their main clients, 
the DOTs and the transit agencies thereby ignoring the needs of the MPO 
and the local governments. I can relate that while working for DRCOG, I 
got little response or attention from the federal agencies to those 
issues we wanted investigated or researched. In fact most of our 
requests were usually run by the CDOT and RTD for their support or 
approval. If these implementing agencies did not agree, usually our 
requests were denied. Where MPOs and local governments have been 
effective in research and development needs is in the application for 
specific grants. These tend to be very specific to a particular project 
or method to be explored and may not necessarily have broad policy 
implications.
    I believe the investment made on research for improved materials 
and in traffic management tools has been a good investment and should 
continue. It is important however, to expand the thinking into 
researching strategies that would encourage people to change their 
travel patterns and choices at least during the peak hours. I also 
believe it is important to evaluate the effectiveness of strategies 
that are being used and/or proposed as congestion relief measures to 
ensure whether or not they are truly being effective. I offer the 
following areas for consideration for further research.

        1)  Establishing best practices, incentives or strategies that 
        encourage people to use alternative modes of transportation 
        during the peak traffic periods.

        2)  Establishing incentives for businesses to encourage their 
        employees to change their traveling patterns during peak 
        periods. In other words, what needs to be done to encourage 
        businesses to implement tele-working, flexible work hours, 
        carpooling, providing transit passes, etc.

        3)  Establishing measurable standards for Traffic Demand 
        Management (TDM) strategies and incorporating them into the 
        Regional Transportation Plan.

        4)  Establishing and determining best practices for dealing 
        with freight movement in the metropolitan areas. Actions such 
        as not allowing trucks during peak periods, exclusive truck 
        lanes, truck bypasses should be evaluated for effectiveness.

        5)  Serious evaluation should be done to determine the success 
        of toll roads and hot lanes that have been established since 
        the passage of ISTEA. These are being proposed as the main 
        strategies to deal with congestion in the Denver metro area and 
        it is impossible to determine if these would be successful 
        strategies. Investigation should be made to determine are the 
        facilities successful. Questions such as, are they generating 
        enough revenue to make them worthwhile? Are they even breaking 
        even financially? Are they relieving congestion on the 
        corridors they were meant to address?

    I hope I have provided useful and helpful suggestions for your 
consideration. I appreciate the opportunity to address the Subcommittee 
and I thank you for your time.

    Mr. Calvert. Mr. Luber.

    STATEMENT OF JAYSON LUBER, HELICOPTER NEWS AND TRAFFIC 
           REPORTER, 850 KOA RADIO AND CHANNEL 9 NEWS

    Mr. Luber. Good morning, Congressman Calvert, Congressman 
Udall. It's a sincere honor to appear before you this morning. 
Thank you again for asking me to be a part of this. I am Jayson 
Luber, helicopter news and traffic reporter for 850 KOA Radio 
and Channel 9 News here in Denver.
    The transportation issues we will talk about today are 
close to my heart. On one hand, the constant congestion 
construction, accident stalls and other road hazards I report 
on a daily basis keeps me employed. On the other hand, delays 
can be some of the most frustrating time and waste of money 
spent in a person's day. Countless dollars are wasted in stop-
and-go traffic while commuters, truckers, delivery drivers sit 
and idle their gas away, have to repair and maintain their 
vehicles' brakes and engines more frequently, lose productivity 
in their job, and miss out on quality time they could otherwise 
spend with their families.
    Understanding the congestion problem is easy. Traffic 
congestion occurs when the number of vehicles exceeds the 
capacity of a highway or road. Metro-Denver is one of the 
worst. According to a 2003 study by the Texas Transportation 
Institute, Denver is the most congested city of its size and 
the third most congested of all cities nationally. I can vouch 
for that as I fly above the congestion on a daily basis.
    Solving the issue is a tough one since the two major 
ingredients in congestion, traffic volume and road capacity, 
are never a constant. Sure we can reasonably predict there will 
be an increase of traffic volume in the morning and afternoon 
rush hours--to and from work--but how much volume is never 
really known until it actually happens.
    The second ingredient, road capacity, can change with 
weather, construction, auto accident stalls. The Federal 
Highway Administration estimates that 50 percent of traffic 
delays are caused by those factors. Now you might think a good 
solution to the problem, as we've talked about, is just to 
build more roads. Well, that can be effective in some areas but 
in major metropolitan cities like Denver, that's not always 
possible.
    Denver has that problem along I-25 through what we call the 
``Narrows,'' the section of highway between Broadway and 
University Boulevard. The T-REX I-25 Highway Expansion and 
Light Rail Project can only widen the interstate from three 
lanes to four lanes in each direction there because of that 
limited space availability. Additionally, road construction is 
expensive, time consuming and may create additional traffic 
hazards adding to the congestion.
    I personally believe Colorado had been slow in building and 
expanding our highways at the rate that kept pace with our 
growth. But in recent years that has improved except for one 
major interstate. Yes, there have been significant improvements 
in the Metro Denver area like the T-REX Project along I-25, the 
expansion of E-470 and the Northwest Parkway toll roads. There 
are improvements of the I-25 along the North through Greeley, 
Longmont, Loveland called ``The North Forty,'' and to the South 
through Casera, Colorado Springs, Pueblo and Trinidad, and up 
in to the mountains over Berthoud and Wolf Creek Passes. But 
one major problem remains. Ask any skier or snow boarder what 
it is, I assume it would be I-70 from Denver to Vail.
    I've heard solutions to that problem that range from trains 
to monorail to buses or HOV lanes or just general widening of 
the highways. All solutions come with a huge cost. Ask any 
highway construction contractor about the challenges and the 
huge price tag attached to building a road up in the mountains. 
I believe a monorail is the wrong solution in predictive bill. 
The majority of passengers would be tourists to our ski areas. 
They are not the ones that are clogging up I-70 on Saturdays 
and Sundays. The best solution, in my opinion, is to expand I-
70 to at least three lanes at each direction, and possibly 
four, and also look at expanding Highway 285 between Bailey and 
Fairplay, and Highway 9 between Fairplay and Crisco.
    I also believe we should study the possibility of getting 
traffic through the Moffat tunnel, linking Boulder County to 
Grand County without traffic having to go over I-70 in Berthoud 
Pass to get up to Winter Park and the Fraser Valley.
    I don't know the estimated cost to the state from a project 
like this but I do know the cost to the ski resorts if we do 
nothing to combat the congestion on I-70. Once, this past 
winter, my wife and I turned around and came back home from a 
ski trip because the hour long delay it took us just to get 
from the Evergreen area to Idaho Springs. And we were still 
looking at another 45 minutes to an hour just to get to Winter 
Park and then we had the prospect of driving back home in all 
that traffic and congestion. It didn't make us want to go 
skiing any longer. How many other front-range recreation skiers 
have done that same thing?
    I'm not a legislator nor do I play one on the radio or TV, 
but I do know what I see hovering over Denver roadways every 
day. And I do know the frustration of weekend and daily 
commuters that drive at our highways. They email me about it 
all the time.
    Thank you for inviting me to testify before your committee, 
and I look forward to ways that I could help control Colorado's 
continuing congestion problems and look forward to any 
questions you may have.
    Mr. Calvert. I thank the gentleman.
    [The prepared statement of Mr. Luber follows:]

                   Prepared Statement of Jayson Luber

To the distinguished Members of the panel,

    Hi, I am Jayson Luber, Helicopter news and traffic reporter for 850 
KOA Radio and Channel 9 news here in Denver. The transportation issues 
we will talk about today are close to my heart. On one hand the 
constant congestion, construction, accidents, stalls and other road 
hazards I report on a daily basis keeps me employed, on the other hand 
traffic delays can be some of the most frustrating time and waste of 
money spent in a person's day. Countless dollars are wasted in stop and 
go traffic while commuters, truckers, delivery drivers sit and idle 
their gas away, have to repair and maintain their vehicles brakes and 
engines more frequently, lose productivity in their job and miss out on 
quality time they could otherwise spend with their families.
    Understanding the Congestion Problem is easy, traffic congestion 
occurs when the number of vehicles exceeds the capacity of a highway or 
road. Metro Denver is one of the worst. According to a 2003 study by 
the Texas Transportation Institute, Denver is the most congested city 
of its size and the 3rd most congested of all cities nationally. I can 
vouch for that as I fly above the congestion on a daily basis.
    Solving the issue is a tough one since the two major ingredients in 
congestion, traffic volume and road capacity, are never constant. Sure 
we can reasonably predict there will be an increase of traffic volume 
in the morning and afternoon rush to and from work but how much volume 
is never know until it happens. The second ingredient, road capacity 
changes with weather, construction, or accidents and stalls. The 
Federal Highway Administration estimates that 50 percent of traffic 
delays are caused by these factors.
    Now you might think a good solution to the problem is just to build 
more roads. That can be effective in some areas but in major 
metropolitan cities, like Denver, that is not always possible. Denver 
has that problem along I-25 through what we call the narrows, the 
section of highway between Broadway and University Blvd. The T-Rex I-25 
highway expansion and light rail project can only widen the interstate 
from three lanes to four lanes in each direction there because of the 
limited space available. Additionally, road construction is expensive, 
time-consuming and may create additional traffic hazards adding to the 
congestion.
    I personally believe Colorado had been slow in building and 
expanding our highways at the rate that kept pace with our growth. But 
in recent years that has improved except for one major interstate. Yes 
there have been significant improvements in metro Denver like the T-Rex 
project along I-25; the expansion of E-470 and the Northwest Parkway 
toll roads; the improvements to I-25 along the north though Erie, 
Longmont, Loveland and Fort Collins and to the south through Castle 
Rock, Colorado Springs, Pueblo and Trinidad; and into the mountains 
over Berthoud and Wolf Creek passes but one major problem remains. Ask 
any skier or snowboarder what it is. I-70 from Denver to Vail.
    I've heard of solutions to that problem that range from trains, to 
a monorail, to bus only or HOV lanes, or just a general widening of the 
interstate. All solutions come with a huge cost. Ask any highway 
construction contractor about the challenges and the huge price tag 
attached to building a road in the mountains. I believe a monorail is 
the wrong solution and predict if built the majority of passengers 
would be tourists to our ski resorts. They are not the ones clogging up 
I-70 on Saturdays and Sundays. The best solution in my opinion is to 
expand I-70 to at least three lanes in each direction and possibly four 
and also look at expanding Highway 285 from Bailey to Fairplay and 
Highway 9 from Fairplay to Frisco. I also believe we should study the 
possibility of getting traffic though the Moffett Tunnel linking 
Boulder County to Grand County without traffic going over Berthoud Pass 
and along I-70.
    I don't know the estimated costs to the state from a project like 
this but I do know the costs to the ski resorts if we do nothing to 
combat the congestion on I-70. Once this past winter my wife and I 
turned around and came back home from a ski trip because of the hour-
long delay it took us just to get from Evergreen to Idaho Springs. And 
we were looking at another 45 minutes to and hour to get to Winter Park 
from there and then the prospect of driving home in that traffic made 
us not want to go skiing any longer. How many other front range 
recreation seekers have done the same thing?
    I am not a legislator nor do I play one on the radio or TV but I do 
know what I see hovering over Denver roadways every day. And I know the 
frustration of weekend and daily commuters that drive on our highways, 
they e-mail me all the time. Thank you for inviting me to testify 
before your committee and for looking at ways to help control 
Colorado's continuing congestion problems. I look forward to any 
question you may have.

Reference:

1.  Texas Transportation Institute study: http://mobility.tamu.edu/ums/

2.  Federal Highway Administration study on congestion: http://
www.fhwa.dot.gov/congestion/

    Mr. Calvert. Mr. Hernandez.

STATEMENT OF CARLOS HERNANDEZ, TRANSPORTATION PLANNER, CHARLIER 
                        ASSOCIATES, INC.

    Mr. Hernandez. Thank you, Congressman Calvert. Congressman 
Udall, thank you very much for my ability to testify today. Can 
we put up my presentation? Okay. I turned down the lights a 
little bit. That's not the cue to fall asleep.
    I'm Carlos Hernandez and I'm a transportation planner and 
our firm is based in Boulder, Colorado. And what we do is we 
develop transportation solutions that don't actually take a lot 
of road capacity. We look at alternative modes as options for 
mobility. We work all on the front-range, we work in the Denver 
area, we've worked in our hometown here in Broomfield, we've 
worked on an interesting project called ``The Zip'' which kept 
ties transit and land use together. In interchange projects, it 
helped build pedestrians' support between land uses and 
residential areas.
    We're a part of a really exciting team on EPA right now. 
EPA is starting to look at how we've actually developed 
communities since World War II. And they are going in to these 
key cities and looking at how growth patterns have met the 
transportation systems and we're part of this larger team.
    So I'm going to use one term throughout and I want to make 
sure it's really clear. And this term is multi-modal. When I 
talk about multi-modal, I mean a pedestrian who's trying to 
access transit. I mean a transit rider who just got off the bus 
with their bicycle. I mean someone who just got off light rail 
and went to the parking lot and is getting in their automobile. 
Multimodal means a combination of different modes.
    The reason why we're really excited about being here is 
because we work on the leading edge of this type of 
transportation. And the way that we convince our clients, when 
we talk to the public and we work with people, is with 
research. We've been involved in various other research 
opportunities especially in this state. We did a big rail-
oriented development study for Colorado Department of 
Transportation that looked at how various forms of passenger 
rail were affecting land uses. We went to Northern California, 
we went to Washington, we went to Seattle and we looked at how 
these development patterns are actually affected by other modes 
of transportation. So research is a very important vehicle for 
what we do.
    There are three areas that are really lacking research on. 
One is pedestrians and traffic. We built huge roadways that 
carry a lot of volumes of traffic and we forgot about 
pedestrians.
    The second part is there's a large body of research that 
has just been published by the Center for Disease Control on 
obesity. And they're starting to talk about how our communities 
are becoming larger and larger. And we think that there might 
be a tie to the built environment. And then the last point is 
actually looking at that built environment. So what do we know?
    Well, from a pedestrian traffic standpoint, we're really 
good at planning for these. We know how to do road capacity. We 
know how to move vehicles around pretty darned good. We've been 
studying it for fifty years. But what we don't know so well is 
what mobility options there are for other users in our 
roadways. Because other users besides vehicles use our 
roadways: Buses, transit, kids walking to school are all part 
of that equation.
    There are many successful examples of integrating bicycle, 
pedestrian and transit in the communities but there's not a 
clearinghouse, there's not a document, there's not a place 
where communities can go to find out what's actually working. 
And there are plenty of great examples around the country. More 
specifically in Colorado, our mountain towns are dealing with 
this problem. This is a picture of Breckenridge. This is what 
everyone thinks of Breckenridge when they think of the 
Breckenridge experience, its Main Street, it's beautiful, it's 
February. Well, here's 4 o'clock on Park Avenue: There's 
traffic. So we need to develop some kind of clearinghouse or 
method of planning for engineers and planning departments to 
balance both of these needs.
    The other part is the Center for Disease Control's research 
on obesity. And it's alarming. It's really alarming. If you 
haven't seen the research and if you only have scratched the 
surface on it, it's pretty amazing to get into depth on what 
they actually know. And we tend to think--and there's a little 
bit of research out there--that this obesity rate is tied to 
our ability to only have automobile access, to not have 
sidewalks and bike paths in our neighborhoods. We need studies 
for us to know if that's right or wrong.
    And there is one body of research that's out there and it's 
in the private sector; Robert Wood Johnson Foundation is doing 
a lot of work on this topic.
    The City of Broomfield, with our help and a few other 
consultants' help, put together this excellent trails plan on 
how we are going to link and trails and put them all together. 
And we presented an opportunity for research to this panel to 
look at how these trail improvements were going to actually 
affect people's ability to get out and move and circulate. 
Well, they have 4,000 applicants for 150 grant applications. 
It's virtually impossible--nearly impossible to get one unless 
you know the right person.
    The last part of it is the grid. And if you look to the far 
left, that's a grid of how we built suburbs since World War II. 
This grid is more of a traditional grid. And we tend to think--
and there's some research out there but none of it really 
extensive--that this grid pattern can have a big effect on how 
people access transit, how people get from point A to B, and 
also alleviating traffic congestion in terms of automobile 
circulation in the front-range and in many of our communities 
who are trying to adapt this multi-modal solutions to our 
neighborhoods. And they're just not working. They're not 
getting to the point where you can get accessible 
neighborhoods.
    We also have these new type of developments that are coming 
along and they're called ``The Walkable Communities,'' and 
they're going to be a big impact on the exurbs, the suburbs, 
and in downtowns all over the country. And we're not sure how 
they work yet. We let the suburbs develop without doing much 
research and now we're going to have these walkable communities 
come about and we're just not sure yet how they're going to 
function. So research is really important. Transportation 
planners in the future are going to need it even more so. And I 
appreciate the opportunity to testify. Thank you.
    Mr. Calvert. I thank the gentleman.
    [The prepared statement of Mr. Hernandez follows:]

                 Prepared Statement of Carlos Hernandez

Who is Charlier Associates, Inc.?

    Charlier Associates, Inc. (CAI) is a multi-modal transportation 
planning firm, specializing in innovative approaches to improving 
mobility for states, towns, cities, counties, regional agencies and 
transit service providers interested in moving beyond traditional 
solutions and approaches. The firm is thirteen years old and has been 
based in Boulder since 1993. With five professionals, representing the 
disciplines of transportation planning, landscape architecture, urban 
design and transportation engineering, CAI has expertise in a wide 
array of transportation applications, including pedestrian and bicycle 
system planning. Perhaps those projects most demonstrative of CAI's 
expertise include application of the firm's research and experience in 
pairing transportation planning and land use patterns to improve 
mobility while preserving and enhancing livability. We focus on:

        <bullet>  Multi-modal transportation corridor planning;

        <bullet>  Transportation master-planning;

        <bullet>  Transit-oriented community design;

        <bullet>  Growth management and strategic land use planning;

        <bullet>  Innovative transit system development concepts and 
        transit development plans;

        <bullet>  Urban design for pedestrian environments;

        <bullet>  Safe pedestrian circulation systems and pedestrian-
        friendly streets;

        <bullet>  Circulation and access issues;

        <bullet>  Parking management strategies for downtowns and 
        activity centers;

        <bullet>  Bicycle and pedestrian system planning and facility 
        design, including ADA requirements;

        <bullet>  Federal, State and local transportation policy and 
        funding.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

How does our firm use innovative approaches to solve transportation 
                    problems?

    CAI works on the leading edge of multi-modal transportation 
planning. We work with our clients to develop solutions that go well 
beyond traditional methods. Such innovations include:

Planning for the future: We write Transportation Master Plans with 
        strategic implementation steps.

Maximizing capital dollars: We incorporate transit, bicycle, and 
        pedestrian facilities into roadway capital projects to minimize 
        costs of high quality facilities.

Developing reasonable solutions: We design community-based solutions 
        that offer competitive travel time to personal automobiles.

Creating options: We work with our clients to integrate land uses with 
        transit stops, bicycle facilities, and sidewalks to increase 
        trips by alternative modes.

Create with the community: We develop alternatives and strategies with 
        the community during all phases of a project to ensure their 
        support during plan adoption and funding.

How does research play a role in our innovation?

    CAI exposes our clients to leading edge research when relevant 
studies exist. Research plays a role in educating communities on 
decisions before new projects are constructed. Likewise, case studies 
from built facilities, present communities with relevant solutions in 
an organized manner. CAI examines research from many cutting-edge 
organizations who are working on transportation and land use topics. We 
focus on research that studies alternative modes of transportation and 
creating communities with mobility options. The organization listed 
below periodically offer guidance on such topics:

        <bullet>  Congress on New Urbanism

        <bullet>  University of California at Berkeley--Institute of 
        Transportation Studies

        <bullet>  Urban Transportation Monitor

        <bullet>  America Bikes

What research should be undertaken to promote communities to build 
                    transportation facilities that support alternative 
                    modes of travel?

1. Pedestrian and Traffic Safety Research

Problem: One of the major barriers to safe pedestrian connections is 
        motor vehicle traffic. We have designed our communities with 
        roadways to accommodate large volumes of traffic for the 
        benefit of high-speed travel. Such roadways require pedestrians 
        to travel across long distances near fast moving traffic with 
        little refuge or protection. Likewise, most of the roadways 
        designed for high-speed travel are near capacity at peak hours 
        and offer fewer opportunities for persons to navigate a 
        crossing.

Available Research: The research available to planners and engineers 
        today is limited. Most of the research in this field tends to 
        focus on taking the pedestrians out of the area with removed 
        sidewalks and overpasses. The available research does not 
        consider land use or transit access, which is critical to 
        creating safe pedestrian environments. Although, many 
        communities have successfully addressed large volumes of 
        traffic and pedestrians, they have not been given the 
        opportunity to document their stories for other communities to 
        use.

Future Research: One of the major opportunities in this field of 
        research is documenting what other communities have learned by 
        trail and error. Because the science of planning for 
        pedestrians is not roadway planning, the same rules of research 
        cannot be applied. We need a document, updated on a consistent 
        basis, or a clearinghouse of research that communities can 
        consult for guidance.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

2. Community Health and the Urban/Suburban Form

Problem: The Center of Disease Control (CDC) has recently published a 
        large set of data that shows our country is becoming more 
        obese. Much of this research has focused on the medical side 
        affects of this growing disease. The research suggests that 
        obesity is accelerated in children and adults with sedentary 
        lifestyles, but the research does not explore a possible 
        connection between transportation alternatives and obesity. 
        Factors such as safe streets, access to local trails, and 
        availability of transit service should receive additional 
        consideration by researchers.

Available Research: The limited amount of research that ties obesity to 
        the urban/suburban form is being conducted in the private 
        sector. Organizations such as the Robert Wood Johnston 
        Foundation are just beginning to investigate this topic, but 
        the program cannot meet the large volume of research requests.

Future Research: Further research on this topic would help develop more 
        livable communities and increase mobility in neighborhoods. 
        Planners could build on the data from the CDC, to develop case 
        studies that tie obesity rates to transportation options in 
        neighborhoods. By tracking physical activity in neighborhoods 
        with different types of sidewalks, bicycle facilities and 
        transit access, the studies could be used to validate or 
        invalidate possible urban form solutions.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

3. Efficiency of the street network and the grid

Problem: Most suburban communities have adopted one form of street 
        pattern for new residential development. That pattern uses cul-
        de-sac and limited access streets to prevent pass-thru traffic. 
        This has made it very difficult for communities to develop a 
        multi-modal transportation system that connects homes to 
        destinations by modes other than the automobile. The 
        alternative to the suburban model is a grid of interconnected 
        streets. Such grids are typically found in traditional 
        neighborhoods near urban centers.

Available Research: The connection between street patterns and 
        pedestrian mobility, bicycle usage, and transit patronage has 
        been studied on a limited basis and only under special 
        circumstances. Most of the findings point to the need for 
        additional research.

Future Research: Additional research focusing on how street patterns 
        distribute automobiles, transit, bicycles, and pedestrians is 
        needed. Communities need a guidebook that highlights the 
        successes and failures of both types of street patterns. The 
        research should continue to document patterns in traditional 
        and suburban neighborhoods.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

                     Biography for Carlos Hernandez

EXPERIENCE

    Mr. Hernandez is a transportation planner with experience in local 
and regional multi-modal transportation planning projects. He has 
particular expertise in transportation plan development, multi-modal 
transportation integration, trail design, and GIS development.
    In the spring of 2002 Mr. Hernandez completed a project sponsored 
by the U.S. 36 Transportation Mobility Organization (U.S. 36 TMO) that 
involved the cities of Boulder, Broomfield, Lafayette, Louisville and 
Westminster; the Town of Superior; and Boulder County. The project was 
a regional effort to map existing bicycle facilities in the U.S. 36 
corridor and identify missing links in the overall system.
    Mr. Hernandez recently completed a Comprehensive Trails Plan for 
the City and County of Broomfield, Colorado. As project manager, his 
primary responsibilities included mapping existing trail facilities, 
coordinating planned facilities, identifying missing links in the 
overall system, re-evaluating trails design standards, integrating a 
major trail along a new toll road (Northwest Parkway), creating a trail 
network that links key recreation and open space areas, and working 
with neighboring cities and counties on regional trail connections. He 
was also a key facilitator at the three public workshops that were 
conducted at various stages in the project. In a similar project for 
the City of Thornton he developed a trail facility classification, a 
detailed inventory of existing trails, plans for future trail 
facilities along ditch corridors, and capital plans for trail 
improvements.
    Mr. Hernandez recently completed a multi-modal transit plan for the 
La Crosse Area Planning Committee (Wisconsin). This plan developed a 
strategic approach to improving fixed route bus operations and 
enhancing pedestrian and bicycle facilities to major transit hubs. Mr. 
Hernandez also developed a series of guidelines and policies for the 
region that address land use and transportation integration.
    In the spring of 2001 Mr. Hernandez conducted a peer study for CDOT 
that evaluated land use response to various forms of passenger rail 
systems. Mr. Hernandez visited and documented rail systems in the San 
Francisco Bay Area, Victoria and Vancouver British Columbia to gauge 
land use response to various passenger rail systems. Mr. Hernandez also 
completed a multi-modal transportation plan for the City of 
Breckenridge, Colorado that same year. As part of the project he worked 
directly with the Town of Breckenridge, Vail Resorts, Colorado 
Department of Transportation (CDOT), Summit Stage, and Summit County 
evaluating the local transit system, potential new gondola alignments, 
pedestrian movements and parking policy.
    Mr. Hernandez has also worked on rail corridor realignments for the 
City of Flagstaff, Arizona, including an initial assessment of 
environmental impacts; parking studies in Steamboat Springs, CO, Santa 
Fe, NM, and Jackson, WY; and site plans for transit orientated tourism 
in Palembang, Indonesia.

Education

Bachelor of Environmental Design, University of Colorado at Boulder, 
        1999

Work Experience

Charlier Associates, Inc., 1998-Present

Affiliations

American Planning Association

America Bikes

Congress for the New Urbanism

    Mr. Calvert. Next, Dr. JoAnn Silverstein. Doctor.

   STATEMENT OF DR. JOANN SILVERSTEIN, PROFESSOR AND CHAIR, 
     DEPARTMENT OF CIVIL, ENVIRONMENTAL, AND ARCHITECTURAL 
              ENGINEERING, UNIVERSITY OF COLORADO

    Dr. Silverstein. Good morning, Congressman Calvert and 
Udall and fellow witnesses and ladies and gentlemen in the 
audience. My name is JoAnn Silverstein. I am a professor and 
chair of the Department of Civil, Environmental, and 
Architectural Engineering at the University of Colorado at 
Boulder. And I very much appreciate the opportunity to present 
developments in transportation research at the University of 
Colorado, which I think address emerging issues on 
transportation systems in Colorado and throughout the western 
United States.
    First, I would like to acknowledge my colleagues who have 
developed the University's Center for Applied Integrated 
Research in Transportation at the University of Colorado, the 
Administration of the University of Colorado for their support, 
and particularly the government relations staff, Tanya Kelly-
Bovary and Lynne Lyons have been invaluable all along the way.
    Almost a year ago, a group of CU Faculty began planning to 
advance existing research in transportation by integrating 
individual expertise and applying our collective knowledge to 
the technical, economic, and societal challenges for planning, 
design, and maintenance of sustainable transportation systems. 
Transportation in the western United States is influenced by 
conditions like highly varied terrain, changing weather, long 
travel distances, air quality, and land development concerns. 
Transportation systems must serve rapidly urbanizing, rural and 
mountain regions. Interstate highways support significant 
commercial and domestic travel and major freight railroad lines 
across the region. Innovative solutions have been developed to 
alleviate growing automobile traffic, such as the Denver Light 
Rail System, which is one of the most extensive in the country, 
and the Integrated Light Rail Bus System, developed by the 
Denver Transit District, which is an exemplary inter-mobile 
transportation system.
    For these reasons, Colorado provides unique opportunities 
for productive research on emerging transportation issues. It 
is our premise that both maintenance of existing transportation 
infrastructure, much of which is in need of renovation, and 
design of new facilities must satisfy concerns for security, 
safety, risk and cost management, environmental protection, and 
sustainability. Merging these themes with the technology of 
transportation systems is the goal of the CU Transportation 
Research Center. To implement this broader vision, the CU 
Center will partner with local government agencies and industry 
to ensure that research will be both practical and applicable.
    Since 9/11, the U.S. Department of Transportation has 
recognized that mass transit systems are a prime target for 
terrorist attack. However, secure travel entails more than 
anti-terrorism. In a broader sense, security includes measures 
to ensure the personal safety of travelers during normal use as 
well as emergencies, and the integrity of the physical 
structures in transportation systems subjected to wear and 
weathering, or during an extreme event, whether a natural 
hazard such as an earthquake or fire or manmade hazards. 
Investigators at CU have developed a systems approach to 
address the risk, safety, and life-cycle cost of transportation 
facilities using analytical models that allow prediction of the 
security of transportation systems by simulating deterioration 
processes and structures, such as bridges, or quantifying the 
vulnerability of structures to natural and manmade disasters. 
In addition, events such as evacuation or human responses can 
be incorporated into these analytical models.
    Cost and Project Delivery. A recent study of 258 
infrastructure projects built over 70 years found that project 
costs were underestimated 90 percent of the time, with average 
cost overruns of 28 percent. Furthermore, costs tend to be 
underestimated as much today as 70 years ago. The impact of 
cost estimation errors can be high, projects are cut and 
scoped, or even cancelled, and public trust in engineers and 
planners is undermined. Causes of inaccurate cost estimation 
are numerous, including the complexity of human organizational, 
technical, and natural resources involved, unforeseen 
requirements for environmental litigation, societal and 
political challenges such as right of way determination.
    Faculty and students at the University of Colorado 
investigate the success of alternative approaches for project 
delivery, project procurement procedures, and contract payment 
in reducing uncertainty in cost estimates by documenting actual 
projects which have been authorized as demonstrations of 
various contract management approaches.
    Environmental Protection. Environmental impacts to air, 
water, and land occur at all stages in the life cycle 
transportation systems. Air pollutants and greenhouse gases are 
emitted during vehicle manufacture, manufacture of steel, 
concrete, and asphalt roadway construction, and vehicle use. 
Among all of these impacts, air pollution is considered to be 
the most significant impact of transportation systems and is 
the subject of significant research at the University of 
Colorado. Litigation efforts in place over the last 25 years 
have resulted in improved air quality in many regions, with 
reduced emissions of carbon monoxide, but also organic 
compounds and nitrogen oxides. However, an expected 70 percent 
increase in passenger miles and 30 percent increase in freight 
transportation over the next 20 years may wipe out these gains. 
Furthermore, new contaminants increase the urgency for 
improving monitoring and control strategies for air pollutants, 
and inevitably, this will involve transportation systems.
    I just want to summarize, in terms of the University's 
contribution to transportation research, the themes of the 
University of Colorado's Transportation Research Center that I 
have described speak to the need for research beyond 
traditional technology which fosters interdisciplinary 
approaches combining engineering, economics, and social 
science. Universities can play an important role in developing 
long-term solutions to transportation needs. They provide a 
neutral forum for examination of diverse and occasionally 
conflicting interests. For example, the life cycle of 
transportation systems is measured in decades, whereas the 
financing of transportation projects is subject to shorter-term 
election and budget cycles. Since short-term financing 
typically drives project selection, long-term impacts of 
transportation facilities may not be adequately considered.
    The primary activity of the University of Colorado's 
Transportation Research Center will be decision support for 
public agencies and industries involved in transportation 
planning and system design. In addition, University students 
constitute a highly educated, enthusiastic, and inexpensive 
intellectual workforce for study of transportation systems. 
Finally, the University will provide opportunities for 
professionals with public and private institutions to study 
transportation issues without the constraints imposed by 
individual projects.
    I'll stop there and thank you very much for the opportunity 
to talk to you.
    Mr. Calvert. Thank you.
    [The prepared statement of Dr. Silverstein follows:]

                Prepared Statement of JoAnn Silverstein

       THE UNIVERSITY CENTER FOR APPLIED INTEGRATIVE RESEARCH IN 
                             TRANSPORTATION

     (SECURITY, SAFETY, RISK, COST, ENVIRONMENT AND SUSTAINABILITY)

INTRODUCTION

Critical Transportation Issues
    This country faces critical transportation issues that will have 
major impacts on the economy, the security, the environment and the 
standard of living for millions of Americans. The ability to grow the 
U.S. economy, face global competition and provide secure movement of 
products and people will be crucial over the next 10 to 20 years. 
Providing safe, secured and efficient transportation with high 
reliability must be accomplished, while preserving long-term 
sustainability of the communities and regions. An integrated university 
transportation research center shall be established to take the lead in 
finding solutions of these issues.
The Vision of the Center
    The Transportation Center of the University of Colorado will be an 
internationally enabled, U.S.-centered technology and educational 
institute whereby multidisciplinary expertise can be applied to provide 
solutions for the Nation's surface transportation issues. It will be 
based on its innovative research capability but with the goal of 
solving problems. The center will include resident researchers, 
teaching professors and special external experts to provide both the 
core competencies and the knowledge to be the national resource for 
surface transportation issues. The center will partner with local 
government and industry to ensure that its research will be practical 
and adoptable. We envision it will become the center of the university 
centers with its national and international outreach for exchange of 
expertise to be a major resource center for the U.S. Department of 
Transportation (U.S. DOT).
Location and Geographic Resources of the Center
    Located in Boulder, Colorado, it is at the center of national 
surface transportation activities. On the railroad front, Fort Collins-
Denver-Colorado Spring forms the major crossing areas of the Nation's 
freight railroads. There are ample experience and knowledge of railroad 
safety and route management nearby and connected to the university as a 
knowledge base. Further south to Boulder in Pueblo is the 
Transportation Technology Center (TTC), home of national and 
international rail car test ground. TTC has tested transit rail cars 
from New York City to Hong Kong since it became independent from U.S. 
DOT in 1988. Because of its large layout and modern facility, it has 
become the preferred center of rail car dynamic testing in the world. 
For urban transportation, Denver has the most extensive modern light 
rail network in the country. Furthermore, it represents an extensively 
integrated rail and bus operation. Utilizing recent research results in 
ITS, the Denver RTD has developed a regional bus management system 
coordinated with the Denver Light Rail System in a real time fashion, 
leading the country in bus/rail service coordination. These are parts 
of the setting of the Transportation Center for the University of 
Colorado and certain formal endorsements and association will be 
completed at the establishment of the center.
    The Denver-Boulder area is also the hub of highway design and 
construction activities. For example, the major U.S. east-west Highway 
70 intersects several north-south highways with numerous elevated over-
pass and clover leaves to accommodate the heavy travel demands of one 
of the busiest wide spread metropolitan area in the USA. In addition, 
the 70 West Corridor poses the difficult challenges for providing easy 
access to the Rocky Mountain Range that requires innovation in 
tunneling or new material elevated structures, the subject of new 
planning and research. The University of Colorado plans to complete an 
infrastructure reliability prediction model for optimizing the highway 
maintenance, using a network of four interconnecting highways and 14 
bridges around Boulder-Denver area (see Figure 1).
National and International Orientation
    The proposed Center will take advantage of the International 
Association for Bridge Maintenance, Safety and Management (IABMAS). 
This association of more than 300 members from 37 countries and over 30 
supporting organizations, deals with transportation infrastructures. 
The IABMAS is led by a faculty member in the University and was active 
in the official investigation of the Kobe Earthquake and surrounding 
highway damages. Another faculty member is actively involved in a post-
September 11 analysis of the collapse of the World Trade Towers in New 
York on request by the National Institute of Standards and Technology 
(NIST). There is ample structure expertise's with the university to 
apply to the surface transportation research.

CENTER THEMES

    The proposed themes for the Transportation Center of the University 
of Colorado are:

Transportation Security
            Personal Security
    Since the 9/11, the U.S. Department of Transportation has funded 
many security-oriented research projects. The fact that mass transit 
always carries a large number of passengers makes it a vulnerable 
target of a terrorist attack. Both the Paris bombing incident (1998) 
and the Tokyo sarin gas attack (1996) serve as a grim reminder of what 
could happen to any major metropolitan city in the U.S. or worldwide. 
The Federal Transit Administration has undertaken a number of critical 
areas of passenger security research ranging from emergency 
communication requirements to hardening of civil facilities. 
Universities have the additional role to fill in looking further into 
the broader impacts and requirements of prevention of attacks and post 
crisis management of an incident. The Federal Highway Administration 
has also undertaken security research. The major areas for research 
concerning passenger security for the proposed center are:

        --  Establishing emergency procedures for passengers/travelers 
        to follow if an incident has occurred, communicate the 
        procedure to them before hand and learn how to implement them.

        --  Training the management or police personnel for transit 
        system or highway of crisis management and crowd control.

        --  Minimizing casualties by orderly evacuation and disperse of 
        passengers/travelers from the scene of the incident.

        --  Pre-established medical and care centers around most 
        probable location of incidence.

            System Security
    In terms of physical structure the vulnerability of transportation 
structures to natural and man-made disasters, usually results in the 
collapse of a structure in a crowded urban area. This not only causes 
considerable human casualties but also has a severe impact on the 
socio-economic stability of the area. A recent report by the American 
Society of Civil Engineers found that 27.5 percent of highway bridges 
in the U.S. have deteriorated to an extent that they are considered 
structurally deficient or functionally obsolete (ASCE, 2003), becoming 
more vulnerable to a terrorist attack. Research of the future security 
of the physical transportation systems will include:

        --  Hardening of the bridges and tunnel in critical security 
        areas. In transit systems for example, underwater tunnels in 
        New York City NYCT or San Francisco BART are clearly necessary; 
        the question is how to accomplish that in minimal time and low 
        cost.

        --  Protection schemes and devices for the electrical power 
        grid and communication control systems for rail transit is 
        another necessity. How to accomplish these with proper design 
        of software and hardware.

    To address these above issues, the center will take the approach in 
the following sequence:

        --  Refine and select critical security vulnerability areas in 
        highway and transit

        --  Outline innovative and practical counter-measures

        --  Define solution options with the center's industry 
        partners.

    In addition to the vulnerability of transportation structures with 
regard to earthquakes, roadside fires are of great concern if we recall 
the recent tunnel disasters in Europe (Channel fire and the Montblanc 
tunnel fire). Furthermore, accident conditions include vehicular 
collisions and crashes with roadside safety devices, such as guard 
rails and support structures for luminaire devices and sign posts. 
These different accident conditions are in the forefront of homeland 
security aspects in search of better protection of our transportation 
infrastructure.
    A system approach to address the risk, safety, and life cycle costs 
of transportation facilities requires good analytical models that can 
predict and simulate the deterioration process of transportation 
structures and the vulnerability of these structures to natural and 
man-made disasters. Such models can be used for risk assessment and 
system reliability analysis of large-scale transportation systems and 
networks, life cycle analysis of transportation structures, and the 
development of health-monitoring and intervention strategies. 
Computational simulations of dynamic events form the core of safety 
assessments for extreme events. Computational mechanics and nonlinear 
dynamic finite element analysis provide the theoretical and analytical 
tools to perform crash, earthquake, and fire simulations of structural 
components and systems in support of forensic engineering and the 
development of new design concepts for extreme events. These 
computational models rely upon basic materials and deterioration 
science, material constitutive laws, facture mechanics, and finite 
element techniques.

Infrastructure Safety and Maintenance
            Risk Analysis
    Risk and safety assessments of the transportation facilities and 
systems are continuations of the discussion from the above section. 
Traditional risks of accident and equipment malfunction are now 
augmented by the possibility of deliberate acts of terrorism.
    The public has traditionally accepted risk of mortality and 
morbidity from highway travel of two to three orders of magnitude 
greater than from other transportation modes. Chief in the minds of the 
public are three factors, each highly correlated with observed decision 
traits. One of these is dread of the event, for which study groups have 
associated the feelings of catastrophe, inequitable, difficult to 
prevent, threatening to the future, and involuntary. Each of these is 
associated with events of transportation of the mass, such as airplanes 
and trains, and much less so with automobile travel. A second factor is 
technological stigma, which is associated with the unknown, 
uncertainty, a lack of observability, lack of immediacy, and the lack 
of trust in the source of the information. Finally, the number of 
people exposed is a critical factor. Studies have shown this is very 
highly influenced by the number of people affected by single incidents.
    We propose to conduct risk analysis of physical systems by focusing 
on:

        --  Its characteristics of induce fear of ``dread'' to the 
        public even if its infrastructure value is not high.

        --  Increasing the observability to any vulnerability of the 
        surface transportation facilities/infrastructure, so that the 
        transparency helps to make it safe and secure.

        --  Investigate designs to reduce the over-exposure of the 
        number of traveling public in a given public transportation 
        facility--future design of facility that reduces security and 
        safety blind spots.

        --  The hardness of the facility.

    A recent study team of the National Academy of Engineering 
(National Research Council, 2002) has investigated in depth the ability 
to increase safety and security of facilities with various 
technological solutions. It concludes that there are essential elements 
for making facilities, especially public ones, safe and less vulnerable 
to attack. Many of their recommendations, including those on lifelines 
and networks, will need to be evaluated. In addition, a small NAE study 
group concluded that isolating systems and preventing acts of terrorism 
would both be essential ingredients in the security of large-scale 
systems. Lessons from a classic NAE study in increasing the security of 
physical facilities at U.S. embassies worldwide can also provide 
valuable guidance with respect to transportation systems.
    Significant research over the past two decades on natural hazards 
and disasters has produced valuable lessons for protection of the built 
environment (Mileti, 1998). While much of this information is not 
directly suitable for terrorist-instigated security issues of 
facilities, many results in mitigation, preparedness, response and 
recovery do bear directly on the transportation facility security issue 
(Levinson and Granot, 2002).
    With regard of the hardness of a facility, usually experimental 
research provides the essential means to validate and calibrate 
analytical models and evaluate the performance of structures under 
extreme load conditions. Without adequate test data to calibrate, most 
analytical models are not reliable as predictive tools and are unable 
to capture the fine details of a failure process. A hybrid test method 
that combines physical testing with model-based simulation provides a 
cost-effective means to assess the behavior of large transportation 
structures without ignoring the detailed behavior of its critical 
components. In such a test, a large-scale structural system can be 
modeled analytically in a computer, while a critical component of the 
system is tested either statically or dynamically to assess its 
performance under extreme loads.
    The University of Colorado at Boulder has a state-of-the-art fast 
hybrid test facility in the Structures Laboratory. The facility is also 
well connected to other large-scale structural testing facilities in 
the U.S., Europe, and Asia both physically via a high-performance 
information network and through personal contacts. It is thus well 
positioned to serve as a resource center to address the most 
challenging problems related to transportation facilities.
    The University of Colorado at Boulder has had a world-class 
geotechnical centrifuge in operation since 1988. This 400 g-ton, 6-m 
radius machine can accommodate a two-ton payload and test it at an 
acceleration level as high as 200 g. It has been used in research in 
many static and dynamic applications. For instance, by activating a 
shake table carried on the centrifuge test platform, effects of 
earthquakes on the stability of earth dams can be studied. On the other 
hand, by using scaled quantities of explosives embedded in the soil 
sample, effects of blasting on buried structures can be readily 
identified.
            System Safety and Life Cycle Assessment
    The prioritization of scarce funds among the multitude of urgently 
needed transportation maintenance activities is a major problem that 
transportation agencies everywhere are facing. Despite all the 
difficulties in using the minimum expected whole life costing as the 
optimization criterion for the prioritization of funds, transportation 
authorities are committed to it. Thus far, however, the implementation 
of this criterion in management of transportation systems has been very 
limited.
    Current transportation management systems, including the two most 
advanced bridge management systems in use in the United States, Pontis 
and BRIDGIT, are based on very restrictive assumptions. Due to these 
assumptions, these systems are not able to: (a) capture the propagation 
of uncertainties during the service life of transportation structures; 
(b) integrate reliability and life cycle cost; and (c) cost-effectively 
manage networks of aging and deteriorating structures. Therefore, 
further research is immediately needed to overcome these difficulties 
by optimizing management decisions for transportation networks based on 
simulated time-dependent performance and life cycle cost.
    One of the objectives of the proposed center is to further develop 
system safety and lifetime assessment and cost models for 
transportation structure networks based on the minimum expected 
lifetime cost criterion. The background on these topics is already in 
place. However, further developments are urgently needed for advancing 
the states of the art and practice in management of the transportation 
infrastructure. Experience in incorporating health monitoring and 
inspections on the assessment of structural safety of bridge systems 
has been acquired over the last decade at the University of Colorado, 
resulting in novel time-dependent safety and maintenance models.
    The proposed center will investigate a new long-term transportation 
infrastructure model for predicting life-cycle cost considering 
multiple-objective optimization for management. This model will provide 
a decision tool that optimizes actions (inspection, repair, 
maintenance, replacement) on transportation infrastructures for 
multiple user-specified performance criteria.
            Safety and Security of Infrastructure and Network
    A primary objective is to develop a model-based simulator for 
optimizing management decisions for transportation networks based on 
simulated time-dependent performance and life cycle cost. Uncertainties 
in loading, environment, resistances, deterioration processes, and 
maintenance costs will be included. An objective and yet practical 
definition of an optimum lifetime management process for transportation 
networks based on minimum expected lifetime cost of maintenance 
interventions is proposed. The goal is to determine and implement the 
best possible management strategy that ensures an adequate level of 
transportation infrastructure network reliability and serviceability at 
the lowest possible life cycle cost. The proposed simulation model will 
also capture the system effect due to loss of functionality of an 
individual structures or a group of structures in the network. 
Therefore, this novel approach will be able to solve problems 
characterized by abrupt discontinuities including such phenomena as 
loss of connectivity of individual structures in the network.
    The framework for optimizing management decisions for 
transportation networks based on time-dependent performance and life 
cycle cost will be based on a multiple-objective formulation balancing 
the reliability of individual structures in the network, the overall 
reliability of the network, and the lifetime cost of maintenance 
interventions. Such an approach is in an initial stage of development 
at the University of Colorado using a real transportation network of 14 
bridges connecting Boulder to Denver as indicated in the figure that 
follows:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The proposed activity will advance discovery and understanding of 
life cycle and network approaches to maintenance and management of 
transportation infrastructure and create the basis of a new generation 
of transportation infrastructures management systems where optimal 
management decisions in terms of life cycle cost are made at the 
network-level while explicitly taking into account the propagation of 
uncertainties during the entire service life of each structure in the 
network.
            Infrastructure Investment and Maintenance
    The subjects of Life Cycle Cost and Project Delivery Alternatives 
for transportation projects hold the key for proper future investments 
and returns. We have historically experienced significant cost overruns 
from the stage of conceptual planning estimates. A recent study of 258 
infrastructure projects spanning a time period of more than 70 years 
found that project costs are under-estimated in approximately 90 
percent of the projects, and the actual costs averaged 28 percent 
higher than estimated on this sample (Flyvbjerg et al., 2002). Although 
highway projects fared better than rail and fixed-linked projects, the 
sample still displays an increase in project costs of more than 20 
percent. Recent high profile highway projects, such as Boston's Central 
Artery/Tunnel (the ``Big Dig'') and Virginia's Springfield Interchange 
have made engineers, contractors, and public taxpayers acutely aware of 
the problem. For example, the Big Dig was estimated at a cost of $2.6 
billion (1982 dollars) and is expected to be completed at a cost of 
$14.6 billion (2002 dollars) with completion anticipated in 2005 (NAE, 
2003). Additionally, it can be argued that construction cost estimating 
on major infrastructure projects has not been increasing in accuracy 
over the past 70 years. The under-estimation of cost today is in the 
same order of magnitude that it was then.
    New ideas and techniques need to be developed to improve this area 
where no learning seems to have taken place. Cost estimation practices 
need to improve for many reasons. Projects are often cut in scope or 
canceled altogether due to other projects exceeding their budgets. This 
persistent cost underestimation reflects poorly on the industry in 
general, but more specifically on engineers.
    The root cause of inaccurate cost estimating on mega-projects 
(projects over $100 million) can stem from a multitude of reasons. 
Managing the capital construction of mega-projects requires the 
coordination of a multitude of human, organizational, technical, and 
natural resources. Engineering and construction complexities can 
include a lack of information on the extent of utility impacts, 
required environmental mitigation, maintenance of traffic requirements, 
work hour restrictions, etc. Quite often however, the engineering and 
construction complexities of such projects are overshadowed by 
economic, societal, and political challenges. In addition to these 
challenges, a number of observers have suggested that project estimates 
have purposely been misrepresented in an effort to secure project 
approval.
    Alternative project delivery strategies offer the opportunity for 
early cost knowledge and construction innovation. While alternative 
project delivery approaches are not yet commonplace in public 
transportation projects, there is a great potential for improved 
management of cost and schedule with the alternative delivery methods. 
For example, ISTEA authorized the FTA to select four transit projects 
to participate in the FTA Turnkey Demonstration Project Evaluation 
Oversight. The programs selected are: Baltimore Light Rail Extension; 
San Juan Tren Urbano Rail; El Segundo Del Norte (Green Line) Station; 
and the BART Airport Extension. Documented evaluations of these 
projects could potentially provide important input into this study. The 
figure below summarizes some of the delivery approaches that may result 
in more accurate cost estimation and management.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    By addressing these alternative delivery strategies with a focus on 
cost estimation and management, the center will provide engineers with 
better strategies, tools and techniques for cost management of our 
nation's infrastructure. Many lessons can be learned from an 
international exploration of these topics. Countries outside the United 
States face the same problems with growing infrastructure needs, 
inadequate public funds and insufficient or diminishing staff. These 
countries have developed alternative delivery strategies that offer 
great promise in the U.S. Through an international research 
collaboration, there is great potential for us all to become better 
stewards of our public resources.
            People, Energy and Environmental Sustainability
    Modern transportation systems cause or contribute to a wide range 
of environmental problems, including local and regional air pollution, 
surface and groundwater contamination, habitat and ecosystem disruption 
and climate change. Significant impacts arise at all stages in the life 
cycle of both vehicles and road and railway infrastructure: emissions 
of air pollutants and greenhouse gases from vehicle manufacture and 
roadway construction and maintenance; emissions from vehicle use; 
deposition and resuspension or runoff of metals from brake and tire 
wear; surface and groundwater contamination from brake fluid, 
antifreeze, oil and grease; and emissions and solid waste from vehicle 
and battery scrappage and from pavement or railway demolition.
    Among these environmental impacts, air pollution concerns have 
historically imposed the most significant constraints on transportation 
infrastructure and technology. Air pollution and climate change are 
likely to be the most important environmental drivers for alternative 
transportation modes and technology improvements in the future. Over 
the past three decades, significant progress has been made in reducing 
the rate of emissions of carbon monoxide, volatile organic compounds 
and nitrogen oxides from new vehicles. Nevertheless, as of 2000, 121 
million people in the U.S. lived in communities that failed to meet 
National Ambient Air Quality Standards for ozone, carbon monoxide or 
PM10 (fine particulate matter less than 10 microns in aerodynamic 
diameter) (TRB, 2002). The transportation sector accounts for a major 
share of the emissions associated with each of these pollutants (EIA, 
2002). Future growth in transportation demand threatens to outpace 
environmental mitigation efforts that have been carried out to date. By 
2025, annual passenger-miles traveled is expected to increase to 8.4 
trillion miles, from five trillion miles in 2000, and freight 
transportation to expand by almost 30 percent, to just over five 
billion ton-miles (TRB, 2002).
    The Surface Transportation Environmental Cooperative Research 
Program Advisory Board, which was established pursuant to a 
congressional mandate in TEA-21, recently concluded that major new 
investments in environment research are needed ``to support the 
Nation's growth and meet public expectations for improved 
transportation system performance'' (TRB, 2002).
    Among the local and regional scale air pollution problems 
associated with transportation, research on fine particulate matter and 
air toxics is particularly urgent. Current EPA standards are based on 
epidemiological evidence linking mortality and morbidity to PM2.5 mass 
concentrations, but significant uncertainties exist about how the size 
and composition of PM influence health risks (NRC, 2001).
    EPA estimates that 100 million people live in areas of the U.S. 
where the combined upper-bound lifetime cancer risk from hazardous air 
pollutants emitted by mobile sources exceeds 10 in a million (EPA, 
2002). Improved characterization of the composition and distribution of 
toxic air pollutants from mobile sources is thus needed to support 
comprehensive risk assessments and design cost-effective air pollution 
mitigation strategies (HEI, 2000). For both PM and air toxics, research 
is needed to quantify personal exposures to transportation-related air 
pollutants. Personal exposure data are especially critical for 
sensitive subgroups, including children, the elderly, those with 
cardiopulmonary disease and pregnant women.
    In the past, environmental assessments of infrastructure plans and 
projects have often focused on local-scale air quality impacts of 
primary pollutants such as CO, with results aggregated over the 
transportation corridor. Environmental assessments for transportation 
systems need to be expanded to additional pollutants, such as fine 
particulate matter and air toxics, and to the full range of scales over 
which impacts occur. Ozone and fine particulate matter can form and be 
transported over distances of hundreds of kilometers, so the impacts of 
transportation systems on these pollutants are best examined on 
regional scales. Improved tools are needed to model the impacts of 
transportation systems on both finer scales and over larger regions, 
including, e.g., added air pollution from induced travel demand and 
land use changes.
            Development of Energy Scenarios and Sustainability
    The basic tenet of sustainability has been defined by the United 
Nations: ``meet the needs of the present without compromising the 
ability of future generations to meet their own needs'' (WCED, 1987). 
One of the major challenges of long-term sustainable development is the 
balance of energy sources and uses. Oil, coal and natural gas account 
for the vast majority of the energy supply for transportation systems 
and electricity production, the latter being an important mass 
transportation energy source and a promising source for hybrid vehicles 
and hydrogen fuel cells. Transportation is the single largest sector of 
energy use in the United States, and therefore increased efficiencies 
will be vital as the supply of the resources mentioned begin to be 
depleted. Efficiencies of current modalities will be important, but so 
will new modes of transportation, altered behavioral patterns and new 
concepts of virtual presence.
    The University of Colorado, Boulder, Center of the American West 
(CAW) provides an arena for regional transportation energy analysis. 
The settlement of the Trans-Mississippi West provides an extremely 
useful case study in a region in which changes in the technology of 
transportation underlie every step and stage of economic development, 
and the use of energy from fossil fuels has been the most consequential 
factor in the transformation of society and economy in the last 
century, with the free and unrestricted use of automobiles governing 
the shaping of the landscape. The Center has recently completed a 
comprehensive study and produced a report, What Every Westerner Should 
Know About Energy, written by Patricia Limerick, Claudia Puska, Andrew 
Hildner and Eric Skovsted. The study was made possible by the Hewlett 
Foundation.
    In 2005, CAW will host, in collaboration with several federal 
agencies, a conference on ``the Role of Engineers in the Shaping of the 
West,'' and transportation issues will be prominently featured in that 
conference and resulting publications. The life cycle analysis of 
transportation structures is fundamentally a historical enterprise. 
Combining the approaches and epistemologies of engineers and historians 
seems certain to produce fresh and innovative understandings.
    There is no single, universally accepted definition of sustainable 
transportation, but the concept generally invokes a system that can 
meet mobility needs for all (including the elderly, disabled and 
economically disadvantaged) and be continued into the foreseeable 
future without harm to the environment and without depletion of the 
resources on which the system depends (Benfield and Replogle, 2002). 
Achieving sustainability in the face of the transportation sector's 
heavy reliance on fossil fuels will be a challenging task. Strategies 
that are generally viewed as promoting sustainability include 
increasing modal diversity, emphasizing transit, walking and biking; 
incentives to use efficient transportation modes; improved integration 
of transportation and land-use to minimize demand for single-occupant 
vehicle use; streamlining connections between modes; and pricing 
transportation so that it reflects full environmental and resource 
costs. The 1991 Intermodal Surface Transportation Efficient Act (ISTEA) 
and the 1998 Transportation Equity Act for the 21st Century (TEA-21) 
and the upcoming SAFTEA endeavor to promote these strategies. To 
improve their effectiveness, research is needed to better quantify the 
full life cycle costs and benefits of alternative transportation modes 
and infrastructure designs. As security issues receive increasing 
priority in transportation system design, both synergies and tradeoffs 
between enhanced security and sustainability need to be explored.
            Financial Incentives for Sustainable Transportation
    Public funding for the development of transportation infrastructure 
made an enormous difference in the history of the American West. It 
will surely be of equal importance (either by its absence or its 
presence) in the national and international future, and that situation 
makes a reckoning with the word ``public'' in the phrase ``public 
transportation'' an urgent priority. There are two elements for 
sustainable transportation: the desirability of having such a system 
and the financial incentives for doing so. While much research has been 
conducted on the first, relatively little have been done to explore the 
financial incentives for constructing sustainable transportation 
systems.
    One financial innovation is to negotiate a comprehensive 
partnership, rather than award construction to the lowest cost bidder. 
This has been practiced in many parts of the world, including to a 
limited extent in the United States. The paragraph below describes an 
example of an owner-contractor partnership agreement in The 
Netherlands, giving preference to bidders of public works projects who 
will construct an environmentally sustainable system. Similar methods 
were used in the building of West Rail of Hong Kong and elsewhere where 
environmental standards are stringent and consequently higher 
construction cost may require. We hope future research can be conducted 
to extend this practice to building sustainable transportation systems.

        <bullet>  The High Speed Rail (HSR) system in The Netherlands 
        is being constructed in to connect the French TGV and German 
        ICE to the Dutch cities of Rotterdam and Amsterdam. The 
        environmental requirements of such large scale project are 
        among the most restrictive in Europe. An American firm, Fluor, 
        has led a consortium that has proposed environmentally friendly 
        construction and taken responsibility for subsequent operation 
        that will satisfy the stringent environmental and noise 
        requirements in The Netherlands. This contract was negotiated 
        with optimal construction and environmental performance, rather 
        than lowest bid construction.

        <bullet>  A second example of innovative funding relates to the 
        large picture of how to reduce carbon waste produced by 
        industrial products. European investment banks and the World 
        Bank are using Carbon Credits as an investment tool to 
        compensate enterprises that are introducing new technologies to 
        reduce the Green House effect. According to figures in the 
        Financial Times in October 2003, a $0.98 credit may be traded 
        on the open market for each tonnage of carbon that would 
        otherwise be produced using old technologies. This scheme is 
        benefiting oil and energy firms who are collecting such credits 
        before projected future pollution penalties set by EU and other 
        international bodies. Carbon credit is being traded as a real 
        financial instrument; however, the credit goes to the 
        manufacturer, not the end user. It is hoped that future 
        research can draw together all the players involved with public 
        transportation as incentives are sought for financing a 
        sustainable system.

    The two above examples demonstrate how one can encourage public 
investment in building sustainable transportation systems. However, 
much research effort needs to be devoted to this area of innovative 
financing for transportation systems. A sound financial incentive will 
secure a base for long-term sustainable development.
    The allocation of public funding, and to a large extent private 
funding, in a free and democratic society based on the principles of 
capitalistic entrepreneurship present demanding challenges with respect 
to both transportation security and sustainability. Security and risk 
perception and trade-offs across societal choices will have enormous 
impact on our country's financial resources in the transportation 
sector. A broad comprehensive approach that has its roots in sound 
technological principles is urgently needed to guide future investment. 
Our country must have the knowledge to provide this guidance, and the 
wisdom derived from this knowledge to encourage free enterprise 
incentives concomitant with the goals of service, efficiency, security 
and sustainability. We must never forget the Native American saying, 
``The Earth was not given to us by our ancestors, it is borrowed from 
our children.''

ORGANIZATION AND MANAGEMENT STRUCTURE OF THE CENTER

    While a detailed description of the management structure of the 
Center is premature at this time, key attributes are conveyed in the 
figure below.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    To ensure vision as well as focus for the Center, input from 
government agencies, industry and the public and private sectors must 
be formalized. These will be infused directly into the Sponsors and 
Supporters Board and the External Advisory Board, both through 
solicitation of views and through members of those constituencies 
serving as members of the boards. These boards will meet regularly with 
the Center Director as well as the Faculty Council in order to 
determine what projects should be initiated and how they will be 
staffed. The Council, in turn, will directly interface with the four 
principal resources of the Center, the Center Faculty, the Affiliated 
Faculty, the Center Visitors, and the External Experts, which form the 
core resource for conducting exploratory studies and research. Outcomes 
of the research and policy studies will then be directly transferred to 
government agencies, industry and private and public sectors.

REFERENCES

American Society of Civil Engineers (2003). Report Card for America's 
        Infrastructure: A 2003 Progress Report for America's 
        Infrastructure. (http://www.asce.org/reportcard/ card viewed 
        October 6, 2003).
Benfield, F.K. and Replogle, M. (2002). The Roads More Traveled: 
        Sustainable Transportation in America--or Not?, Environmental 
        Law Reporter, 32, 10633.
EIA (2002). Emissions of Greenhouse Gases in the United States--2001, 
        Energy Information Administration, U.S. Department of Energy, 
        Washington, DC.
EPA (2002). National Air Toxics Assessment for 1996, U.S. Environmental 
        Protection Agency, Washington, DC.
Flyvbjerg, Bent; Holm, Matte Skamris; Buhl, Soren (2002). Under-
        estimating costs in public works projects: Error or lie? 
        Journal of the American Planning Association, 68(3), American 
        Planning Association, Chicago, IL, 279-295.
HEI (2000). HEI Strategic Plan for the Health Effects of Air Pollution, 
        Health Effects Institute, Cambridge, MA.
Levinson, Jay and Granot, Hayim (2002). Transportation Disaster 
        Response Handbook, Academic Press.
Mileti, Dennis (1998). Disasters by Design, National Academy Press, 
        Washington, D.C.
National Academy of Engineering (2003). Completing the ``Big Dig'': 
        Managing the Final Stages of Boston's Central Artery/Tunnel 
        Project. National Academy of Engineering, Board on 
        Infrastructure and the Constructed Environment, Washington, 
        D.C.: The National Academies Press.
National Research Council (2002). Making the Nation Safer: The Role of 
        Science and Technology in Countering Terrorism, National 
        Academy Press, Washington, D.C.
NRC (2001). Research Priorities for Airborne Particulate Matter: III. 
        Early Research Progress, National Research Council, National 
        Academy Press, Washington, DC.
Slovic, Paul (2000). The Perception of Risk, Earthscan Publications, 
        Sterling, Virginia.
Transportation Research Board (2002). Surface Transportation 
        Environmental Research: A Long-Term Strategy, Transportation 
        Research Board, Washington, DC.
Transportation Research Board (2003). Transportation Security and 
        Infrastructure Protection. Transportation Research Record 1-
        822.
White, Richard, (2000). ``Contested Terrain,'' in William G. Robbins 
        and James C. Foster, editors, Land in the American West: 
        Private Claims and the Common Good (Seattle: University of 
        Washington Press), p. 194.
World Commission on Environment and Development (1987). Our Common 
        Future, Oxford University Press, Oxford.

APPENDIX A

                      Physical System Performance

    The University of Colorado at Boulder has renowned faculty in the 
area of performance of structural and geotechnical systems. Three 
aspects of physical system performance are of special interest for 
transportation systems, and are among the most active and acclaimed 
areas of expertise among the faculty. These are described briefly 
below.
Fracture and Fatigue
    Fracture mechanics plays a most important role in the service life 
assessment of transportation facilities. Steel structures are prone to 
subcritical fatigue crack growth originating at poor welds, and 
aggravated by repeated loads, weathering (corrosion), and over-
stressing. In particular, steel bridges built in the early 1960's are 
likely to have a high strength steel, but low fracture toughness, which 
may result in potential collapse.

Structural Deterioration
    The deterioration of concrete structures manifests itself primarily 
through the formation of cracks. Whereas one would expect any 
reinforced concrete structures to develop cracks, shear failure 
(through cracking) is still poorly understood and in some cases 
critical, and nonlinear fracture mechanics concepts must then be used. 
Furthermore, chloride diffusion or carbonation can lead to a drop in 
the concrete Ph, which depassivates the steel, thus removing its 
inherent protection against corrosion. Once steel corrosion starts, 
there is a swelling of the steel resulting in cracking and eventually 
spalling (potholes) of the concrete. This can only be effectively 
addressed by fracture mechanics. Finally, modern bridge rehabilitation 
with fiber-reinforced polymers (FRP) has to rely on fracture mechanics 
to properly understand the various failure modes of these hybrid 
structures.

Foundation Failure
    The performance of a transportation structure under extreme loads 
depends very much on the behavior of its foundations. For example, 
liquefaction and soil-structure interactions have a critical impact on 
structural performance under a major earthquake event. The 
deterioration of a transportation structure can also be caused by 
foundation settlements and scouring. Centrifuge testing is an important 
tool to characterize the constitutive behavior of soils and predict 
their behavior under different loading conditions. The concept of 
centrifuge modeling is quite simple. By testing an nth scale model 
under an acceleration equal to n times Earth's gravity, the important 
effects of gravity loading on earth structures and the control of 
soil's strength and stiffness properties can be faithfully simulated. 
Centrifuge testing can be used to study the safety of prototype designs 
and to validate analytical and numerical models. Thus, it can play a 
key role in the transportation research center because of its 
versatility in simulating various events that impact on the security of 
the transportation infrastructure. The issues of cost effectiveness in 
novel designs of critical protective structures and strengthening of 
existing structures can be conveniently addressed.

APPENDIX B

                         Summary of Activities

1. ``An Established and Organized Program''

     THE INTERNATIONAL CENTER FOR APPLIED INTEGRATIVE RESEARCH IN 
                             TRANSPORTATION

    Over the next two decades, transportation issues will have major 
impacts on the economy, the security, the environment and the standard 
of living for millions of Americans. In particular, global economic 
competition and the assurance of secure movement of products and people 
will become crucial within the next 10 years. Concomitantly, 
transportation systems must sustain our communities and society as a 
whole. An integrated transportation research activity has been 
established at the University of Colorado to take the lead in 
addressing these issues, and a formal Center is being planned.
The Vision of the Center
    The Transportation Research Center at the University of Colorado 
will include resident faculty researchers, special external experts, 
and students to provide the core competencies and the knowledge to be a 
national and international resource for planning and implementation of 
surface transportation systems. In addition, the Center will partner 
with local and regional government agencies and transportation 
enterprises to ensure that its research will be practical and 
adoptable. The Western mountain states are a very appropriate region 
for a national transportation center. The region has highly varied 
terrain, significant climate variability, long travel distances, as 
well as unique air quality and land development concerns. The need for 
integration of transportation systems to serve rapidly urbanizing, 
rural, and isolated mountain areas along with inter-regional travel 
provides opportunities for novel research and development. Furthermore, 
the Center will draw upon transportation expertise from around the 
world in bringing the greatest possible knowledge to bear on the 
transportation challenges of our country; while at the same time Center 
outreach will be directed to adapting the Center's integrated approach 
to transportation problems throughout the country and in other parts of 
the world.
Location and Geographic Resources of the Center
    Colorado is the center of significant national surface 
transportation activities. The Fort Collins-Denver-Colorado Springs 
corridor has major crossing areas for the Nation's freight railroads, 
and there are ample experience and knowledge of railroad safety and 
route management nearby. The Transportation Technology Center (TTC), 
home of national and international rail car test ground, is located 
south of the Denver Metro area in Pueblo, Colorado. Because of its 
large site and modern facilities, it has become the preferred center of 
rail car dynamic testing in the world. With respect to urban mass 
transportation, Denver has the most extensive modern light rail network 
in the country, and leads the country in bus/rail service coordination. 
The Inter-mountain region is also the hub of highway design and 
construction activities, supporting a network of major north-south and 
east-west interstate highways. The I-70 West Corridor poses especially 
difficult challenges for providing easy access to the Rocky Mountains 
and points west that require innovation in tunneling, right-of-way, and 
new materials for elevated structures.
    Faculty at the University of Colorado have been engaged in 
significant research on transportation infrastructure for many years, 
and over the past five years there have been almost 50 independent 
projects supported at the level of approximately $1.5 million per year, 
as described below. By bringing these individual researchers together, 
the Center will be able to make a significant contribution to emerging 
needs for transportation systems in the West, the entire country and 
worldwide.

2.  ``$1m/yr Transportation Research Activities for the Past Five 
                    Years''

                    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                    

3.  ``Five Graduate Degrees (MS) Given in the Past Five Years in 
                    Transportation Related Field''

    Only Master's degrees are listed here. Doctoral degrees are given 
in Appendix II.
1999
Miyake, Masaru, ``Cost-Based Maintenance Strategies for Structures''
Frank, Dean, ``Nondestructive Evaluation and Inspection of Structures''
2000
Ge, Yu-Ning, ``Finite element analysis of staged construction''
2001
Noh, Jinil, ``Reliability Analysis of Fiber-Reinforced Polymeric Bridge 
        Deck''
Anderson, Melissa, ``Source Apportionment of Toxic Volatile Organic 
        Compounds''
2002
Omachi, Yoshiaki, ``Lifetime Bridge Reliability Analysis under 
        Fatigue''
Kawakami, Yoriko, ``Life Prediction of Damaged Bridges''
Chanvut, K., ``Corrosion Protection Methods for Reinforced Concrete 
        Highway Bridges''
Xie, Z.H., ``A Comparative Study on Corrosiveness of Different De-Icing 
        Agents (Magnesium Chloride, Sodium Chloride, and Caliber 
        M1000)''
Cusson, R., ``Durability Properties of Fiber Reinforced Polymer Bars 
        under Low Temperature Environment''
Hoyland, Jorg, ``Analysis of collapse mechanisms related to the 
        disaster at the World Trade Center, September 11, 2001''
2003
Sakulyanontvittaya, Tanarit, ``Evaluation of ISCST3 and AERMOD for 
        Modeling Benzene Dispersion in Commerce City, 2003''
Shane, Jennifer, ``Design-Build Highway Construction: An Examination of 
        Special Experimental Project Number 14 Performance''
Won, Spencer. ``Classification of Life Cycle Criteria in Design-Build 
        Highway Projects''
Wormer, Jeffrey, ``Three-dimensional nonlinear analysis of slope 
        stability in heterogeneous soils''
Woodruff, Ryan, ``Centrifuge modeling for MSE-shoring composite 
        systems''

4.  ``Three Full-time Faculty in Transportation Fields''

INFRASTRUCTURE SAFETY AND PERFORMANCE
            Maintenance, Management, Reliability and Life Cycle 
                    Performance
Dan M. Frangopol, Professor, Civil, Environmental and Architectural 
        Engineering, Director, COALESCE (Consortium on Advanced Life 
        Cycle Engineering for Sustainable Civil Environments), 
        President, IABMAS (International Association for Bridge 
        Maintenance and Safety)
George Hearn, Associate Professor, Civil, Environmental and 
        Architectural Engineering
            Structural Reliability and Life Cycle Analysis
Ross B. Corotis, Denver Business Challenge Professor of Engineering, 
        Civil, Environmental and Architectural Engineering, Structures 
        Co-Director, Consortium on Advanced Life Cycle Engineering for 
        Sustainable Civil Environments
ENVIRONMENT AND ENERGY POLICY
            Environment and Air Quality
Jana B. Milford, Associate Professor, Mechanical Engineering, Center 
        for Combustion and Environmental Research, Center for Science 
        and Technology Policy
            History, Development and Energy Policies
Patricia N. Limerick, Professor, History, Founding Director, Center of 
        the American West
FACILITY DESIGN
            Geotechnical Engineering and Centrifuge Laboratory Testing
Hon-Yim Ko, Professor, Glenn Murphy Chair of Engineering, Civil, 
        Environmental and Architectural Engineering
            Materials Engineering and Fracture Mechanics
Yunping Xi, Associate Professor, Civil, Environmental and Architectural 
        Engineering, Director, Colorado Local Technical Assistance 
        Program (C-LTAP)
Kaspar Willam, Professor, Civil, Environmental and Architectural 
        Engineering
Victor Saouma, Professor, Civil, Environmental and Architectural 
        Engineering
            Dynamic Structural Analysis and Dynamic Structures 
                    Laboratory Testing
Benson Shing, Professor, Civil, Environmental and Architectural 
        Engineering, Director, NSF Network for Earthquake Engineering 
        Simulation Center
CONSTRUCTION MANAGEMENT
            Construction Engineering and Management
Keith R. Molenaar, Assistant Professor, Civil, Environmental and 
        Architectural Engineering
James E. Diekmann, Professor, Civil, Environmental and Architectural 
        Engineering
TRANSPORTATION CENTER, UNIVERSITY OF COLORADO AT DENVER
Bruce N. Janson, Professor, Civil Engineering, CU-Denver, Director, 
        Transportation Research Center

5.  ``Twenty Journal Publications in the Past Five Years''

    1999--13 publications
    2000--12 publications
    2001--10 publications
    2002--9 publications
    2003--28 publications

    In addition to the above, there were numerous reports and 
conference presentations.

                    Biography for JoAnn Silverstein

Education

Ph.D., Civil Engineering, University of California, Davis, 1982 
        (Environmental Engineering)
M.S., Civil Engineering, University of California, Davis, 1980 
        (Environmental Engineering)
B.S., Civil Engineering, University of California, Davis, 1977, (Summa 
        Cum Laude)
B.A., Psychology, Stanford University, 1967 (Honors)

Awards

Clarence Eckel Faculty Achievement Award, CU, Dept. CEAE, 2001
Faculty Appreciation Award, CU Multicultural Engineering Program, 2000-
        2001
Distinguished Engineering Educator, (national) Society of Women 
        Engineers, 2000
Faculty Award for Women Scientists and Engineers, National Science 
        Foundation, 1992-1997

Academic Experience

1998-Present--Professor, Dept. Civil, Environ. & Arch. Engr., Univ. 
        Colorado, Boulder
1989-1998--Assoc. Professor, Dept. Civil, Environ. & Arch. Engr., Univ. 
        Colorado, Boulder
1982-1989--Asst. Professor, Dept. Civil, Environ. & Arch. Engr., Univ. 
        Colorado, Boulder
Registered Professional Engineer, Colorado #26151, since 1989.

Interests

    Research and teaching in civil and environmental engineering, 
especially on the use of microbial processes to remove contaminants 
from waste water and water supplies, to treat waste water and biosolids 
for beneficial reuse, and to restore damaged environmental sites such 
as abandoned mines. Achieving greater diversity in the engineering 
workforce and academia by increasing participation of women and people 
of color.

Publications and Research

    Over 50 papers in reviewed journals, conference proceedings, and 
books on sustainable remediation of acid mine drainage, nitrogen 
removal from water and waste water, pathogen survival in waste water 
recovery processes, biodegradation of toxic contaminants and health 
effects of land application of treated biosolids. Patent: ``Biological 
Denitrification of Water.''

Teaching

    Twenty courses in engineering. Sixteen Ph.D. student advisees 
graduated since 1989, 11 in academic positions. Director, NSF-sponsored 
environmental engineering Research Experience for Undergraduates 
Program, sponsoring eight summer interns per year.

Current Service at CU

    Department Chair, VCAC, Faculty Advisory Boards: Center of the 
American West, Women in Engineering Program, interdisciplinary 
Environmental Engineering program.

                               Discussion

    Mr. Calvert. I have a couple of questions, and an 
observation I'd like to make. It was a movie a number of years 
ago. I don't know if you all saw it, starring Steve Martin, 
called L.A. Story. There was a particular part in this movie 
where the character that Steve Martin was playing told his wife 
that he was going to go see his best friend. He went out of the 
driveway, got in his car, and he drove next door. And being 
from California, I didn't know what was so funny about that.
    But as we talk about mass transit and you've mentioned, Mr. 
Luber, the concept of a monorail going up by Interstate 70 or 
Mr. Vidal, you mentioned the conflicts sometimes between trying 
to get people into transit, how do people accept it in this 
region? I know in the West, whenever I go in the West, because 
of the wide open spaces and so forth, it seems culturally 
people are attached to their automobiles. Is that any different 
here in Denver? How successful--I think for the whole panel--
how successful have buses, mass transit rail, how successful 
has it been up here? People accept it?
    Mr. Vidal. I think--a couple of comments on that. I think 
we need to, in terms of the acceptance out here in the West, as 
you know, it's your God-given right to have a car, I mean, and 
people look at it that way. I think the acceptance is somewhat 
based on whether or not you've got a Light Rail line on your 
corridor--and right now, the Light Rail lines that we have 
opened have been incredibly successful. I think what--the 
education piece that's missing is that most people need to 
understand that these solutions are peak-hour solutions. 
They're not solutions to take your car away from you, and I 
think that's the big part of the problem. But I've got to say 
that part of the acceptance here is that--I always describe it 
as the Tarzan Syndrome, you know, when Tarzan goes swinging in 
the jungle, he's not going to let go of one vine until he sees 
the other one in his other hand. And I think that some of the 
lack of acceptance is just not having the facilities available.
    And so right now your only option in many of these 
corridors is to take the car. So I think we need to educate our 
people in the urbanized areas that this is a way to resolve the 
problem for peak periods. Jason mentioned T-REX. If we were not 
doing that as a multi-modal corridor, it would require 10 more 
lanes. We would have to buy 500 homes and 200 businesses. You 
know, in the metropolitan areas, even if we want to stay 
attached to our cars, there's no room. We have got to come up 
with some other way to use the existing footprint and so I 
think we're dealing with that conflict of acceptance of Light 
Rail or transit over the car, but I think it becomes a 
necessity. And that's why planning for these things to be 
accessible and cost-effective becomes really important in 
urbanized areas.
    Mr. Luber. I agree with Bill about you can't force people 
out of their cars, you just can't, especially out here in the 
West. People just love to drive. I mean, that's part of being 
out here. You know, people like to do their own recreation 
thing. But I do believe that the Light Rail has been a good 
success in the Southwest corridor where it's going down the 
Santa Fe line. You'll look at the Light Rail that's already 
there and then you have an HOV lane along Santa Fe in the same 
corridor which nobody uses. That's just a waste of highway 
right there. HOV lanes are really a waste of good productive 
highway unless you put a dedicated bus service that would only 
go on that line.
    Rail service is much better only if they can get people to 
where they want to go quickly, efficiently, faster than what 
they're going to do, or at least the same time as their cars, 
most likely it would be faster, but also cheaper. Parking 
downtown is very expensive now. And if you work downtown, let's 
say on a monthly basis, you are paying $100 a month, you pay 
$50 for the Light Rail, jump on the Light Rail anytime. I think 
that Light Rail down through T-REX is going to be packed Day 1 
when it opens. It's going to be a great system. If we can find 
a way to expand that up to Boulder, here through Broomfield, up 
I-25, up through Loveland, and Fort Collins, and even maybe to 
Greeley, down to the South towards Castle Rock, and eventually 
maybe into the Springs. That would be a good way to go. But you 
could never ever get rid of people driving their cars. You just 
got to give them a better option than driving. Because I know 
during a Broncos game or even if I was going downtown--last 
night went to see Cirque du Soleil, I would definitely use it 
since I live down the Park Meadows Mall. I would have jumped on 
the train in a second just to get down there because it dropped 
me off where I need to go efficiently, relatively 
inexpensively.
    Mr. Hernandez. The question that you asked is more based on 
ridership. Keep in mind that in Denver, we have the number one 
transit agency in North America voted by the American Public 
Transit Association. We have regional routes that carry well 
over 5,000 people a day, and these are just buses, so the 
vehicle is actually not the kind of framework discussion we're 
having. We're talking about people choosing transit, people who 
are choosing transit. The town that we work and live in has an 
enormous, extensive transit system that interconnects. We carry 
five to six thousand people a day on our transit system along 
some routes. We've made investments in that transit system 
network so it's not so much the attitudes of people that don't 
want to ride transits. It's more of the attitude that is get-
me-to-where-I-need-to-go-efficiently. And in some communities, 
they've been able to balance that need and they've had 
extensive growth in ridership. Other communities just have kind 
of piecemeal transit decisions which together have had 
lackadaisical results, so the idea of ``Is a Light Rail going 
to solve the problem?'' isn't really the best answer. It's more 
of our people's attitudes to use the connection actually 
better.
    Dr. Silverstein. I think the element of choice has always 
played a role in the culture of our preferences in the West for 
transportation systems. And I think multi-modal systems, 
because they are inherently flexible systems, can speak to that 
cultural preference for choice. And so, I believe that the new 
systems that emphasize multiple modes of transportation are 
going to be a way to drive public acceptance of more 
sustainable transportation systems. So I would just speak to 
continue in on that line of transportation development.
    Mr. Calvert. Thank you. Mr. Udall?
    Mr. Udall. Thank you, Mr. Calvert. Yeah, and I want to 
thank the panel. Your testimony is very helpful to me. I am 
hoping we're going to have a couple of rounds and we'll also 
have some people here in the audience, particularly CDOT may be 
represented, and if they are I'm sure the Chairman would be 
willing to have CDOT to share some of their perspectives as 
well.
    Jayson is great to put a face to the name. We all here hear 
you all the time and thank you for being willing to take your 
time and share your experiences which I think will be very 
worthwhile and very helpful.
    You talked about HOV lane on the Santa Fe corridor and you 
don't see it being used. Do you want to talk a little bit about 
what might be some options there in your point of view?
    Mr. Luber. Well, right now, at least along the Santa Fe 
corridor, there is not much room. They've done so much work 
down there--built some new bridges, incorporated the Light 
Rail--it's part of the Southwest project. It should just be 
opened up to general purpose lanes, at least at this point. 
Nobody is using it and it really is a waste of time. We've 
tried HOV lanes here on the north side of town, between the 
Boulder turnpike and downtown Denver. They're used 
occasionally. But in this city, you are not going to have 
people that are carpooling. You're going to have the occasional 
couple that might go into work, the occasional motorcycle 
that's going in there. It's very tough to get people out of 
their cars, especially if they want to be downtown, and let's 
say, you want to run over to the mall after work, or you have 
to go here or go there. I have never thought that HOV lanes are 
a very good idea. You just got to give people a better reason 
to get out of their car and onto something else.
    Mr. Udall. Uh-huh. You have an opinion on hot lanes or 
anybody else in the panel?
    Mr. Hernandez. On the hot lanes and on the HOV topic, when 
the lanes were constructed on U.S. 36, it saved eight minutes 
off the time for transit to get from downtown Denver up to the 
Broomfield Park and Ride. And so, the HOV lanes don't just 
serve a single purpose of getting people out of their cars. 
There are significant improvements for transit and if you ride 
the bus from Denver to Boulder, seven minutes is a lifetime so 
they do have definite improvements.
    Mr. Udall. Anyway, yeah I can see the point of it. It does 
help some of the buses that do move up and down there.
    Mr. Vidal. A hot lane would be a decent idea. People would 
want to pay for it, sure let them drive it. I mean, why not if 
you're going to get a little bit of revenue out of it. Cost is 
a huge factor in building anything, especially now with 
construction. The cost of construction is astronomical. So let 
the people who are using it pay for it.
    Mr. Calvert. Anybody else in the panel like to.
    Mr. Hernandez. You know, it's interesting to hear it, 
Jayson, if people aren't going to use the HOV lanes for free, 
why would they pay to use it? It seems counterintuitive. But I 
think all of these strategies, whether it's HOVs or hot lanes, 
I think they have their specific use on perhaps a specific 
corridor. But I don't think they're over--becoming overall 
solutions for every single congestion problem. And I think both 
the hot lanes and HOV lanes, part of the reason we don't see 
them as successful, is in a 24-hour period, yeah, it doesn't 
look like anybody is using them. But during the peak period, 
and I still want to concentrate on that, there are 
transportation problems or congestion problems. What we really 
are measuring are peak period problems. And during those peak 
periods, the north HOV lanes do carry a fairly significant 
amount of traffic. But again, and you know, you see those lanes 
relatively empty for hours of the day when you don't have the 
peak period pressure.
    Mr. Luber. Even during the rush hour I have seen them, 
they're not very busy at all.
    Mr. Vidal. Well, they're at levels of service A. But I know 
that they're carrying thousands of cars for the peak period, 
you know, but it's at a much higher level of service than the 
congested lanes.
    Mr. Udall. I know this discussion will continue on that. In 
that regard, we have some other examples now with E-470 in the 
Northwest parkway to look at that in comparison. But I would 
like to move to I-70. I have the best congressional district in 
the country except for Mr. Calvert's. I want to be clear about 
that.
    When the new district was drawn after the census was 
completed, I suddenly was representing some of the major 
highways and corridors in the state, I-25 North, 36th Corridor, 
and I-70. And I represent the Ski Counties of Eagle and Summit 
and Grand as well as Clear Creek and Gilpin. And those--their 
economies are dependent on recreational use, on people having 
access to the mountains, and I think Mr. Luber's experience is 
not uncommon to many of us. You talked about, you don't think 
the Maglev Monorail works, I want to let Mr. Hernandez talk a 
little bit about what he's learned and some of the work that 
he's done with those ski communities and what they think the 
solutions would be to these very significant challenges we 
have.
    Mr. Hernandez. Sure. And you're exactly right. They're huge 
and significant. Last fall, we completed the study for the town 
of Breckenridge because they were looking to transfer their 
state highway from Maine Street to Park Avenue. And one of the 
issues that they struggled with, and in the evening you saw 
that photo, you get just gridlock in downtown Breckenridge. And 
that's not what people want to see in Breckenridge. A lot of it 
comes down to how we get people up to Breckenridge, but also 
how we get people around Breckenridge once they're in town. And 
if you look at how a Light Rail system or a high speed corridor 
on I-70 would do that, it just falls apart.
    People bring a lot of gear with them when they come up to 
the mountains. How do you get all that gear and those people 
from I-70 and Highway 9 all the way 12 miles into Breckenridge? 
Once they're in Breckenridge, you have to provide 
transportation for them.
    When working with their resorts, we learned about how 
people actually get from DIA up to the mountains. Most of the 
time, they'll take a resort shuttle. Sometimes they'll rent a 
car. When you rent a car, you have mom and dad and three other 
people in the car, so dad goes off and go shopping, mom wants 
to play golf, the kids want to go the pool, and their daughter 
wants to go skiing. Well, those are five different 
transportation trips that can't be served by one vehicle. So 
it's very important to have a balanced transportation system in 
Breckenridge to serve all those needs. So the need is not just 
to get the resort people up to the mountains and dump them at 
Highway 9.
    The need is more for in-town transportation. We have a huge 
influx of people coming to the mountains now that didn't before 
with the buddy passes. And the buddy passes are fueling 
parking. And so Breckenridge is one example, you can look at--
Winter Park is another example--they're trying to balance where 
they put their parking investments and transportation 
investments because they don't want these people to get out of 
their vehicles, get into a bus, and be carted halfway across 
town. So there are a lot of transportation issues that are 
locally based that would affect the regional transit issue.
    Mr. Calvert. But on the subject of, talking about research, 
and after a number of years of investing money in the actual 
construction, ISTEA, TEA-21 and obviously we're talking about a 
new transportation bill this year, hopefully we're going to 
conference here this next week and get the transportation bill 
passed. But it seems, whatever community that we all go to 
throughout the country, it seems that the money that we're 
spending is not obtaining the goals we would like it to 
accomplish. And as was mentioned by Dr. Silverstein, the cost 
of these projects in every case inevitably exceeds whatever 
estimate that was placed before. I mean, the famous one of 
course is the Big Dig in Boston, for instance. You'll be there 
shortly, I know. And of course the L.A. Subway system and it 
goes on and on and on.
    What kind of research is necessary, do you believe is 
useful, and has results that are palatable and that shows that 
we're going to get our money's worth out of these 
transportation investments because we're talking about hundreds 
of billions of dollars in this transportation bill that's 
coming before us shortly. I think this is for the general 
panel. Doctor?
    Dr. Silverstein. I just surveyed some of the transportation 
research projects that have been conducted at the University of 
Colorado over the last five years. An amazing number of them--
virtually all--are single mode, what I would call single mode 
research projects. So there are things like highway 
infrastructure design and maintenance, road way materials and 
testing durability of concrete, methods to reduce crashes at 
rural intersections, modeling ozone episodes, surface swelling 
and airport structure movement. And these projects are largely 
supported by transportation agencies, which have as their own 
charge, single mode transportation systems, whether it's the 
Federal Highway Administration, the National Cooperative 
Highway Research Program, the Insurance Institute for Highway 
Safety, the Federal Aviation Administration, and university 
administrators, save for our part, have historically and 
unfortunately developed in-depth expertise on various 
circumscribed topics rather than investigating more complex 
systems with interdisciplinary approaches. And I think that 
funding agencies can have a very strong impact on the kind of 
research that gets done on transportation. And that as funding 
agencies broaden the scope of the problems that people need to 
investigate--or the scope of solutions that need to be 
considered--then research will begin to deal with more relevant 
problems.
    You've mentioned the safety legislation. There's an 
interesting part of the safety legislation called Alternative 
Park Transportation Program. And it just struck me that the 
Rocky Mountain region, of course, has at least three national 
parks in the state, which could be added to that program which 
could provide a great opportunity for looking at multi-modal 
and modal transportation solutions to what can also be a 
significant transportation problem in the State of Colorado.
    Mr. Hernandez. ISTEA and the reauthorizations were really 
important. If you leave today and you go a little bit further 
north, you'll see this great underpass that was built as part 
of a research project that was funded exactly by that program. 
It allows children that wouldn't be able to cross the eight-
lane 40 to 50 mile an hour roadway--they can do that now. They 
can get over to a grocery store, they can get over to daycare, 
they can get to the park across the street.
    The Embarcadero area in San Francisco, much of the great 
pedestrian places and activity that's happening there came out 
of research and how you actually get people from transit to 
land uses. Zion National Park has implemented a program where 
now you park at the park entrance--that's a good way to put 
it--you park at the entrance of the park and you get on 
transit, and you take transit vehicles throughout the park. The 
wildlife is coming back to the park, emission in mobile sources 
are down in terms of pollution in the park, and that all came 
out of this legislation in research. I could go through a long 
list, but yeah, I mean, the Big Dig, yeah, that may not be the 
best case example for the research, but there are plenty of 
successful examples all around the country.
    Mr. Luber. I guess my point is--I would think research for 
each area has got to be specific for the area. I mean, what 
happened in Boston is not going to necessarily happen here and 
nor would it work for us here what happened there or elsewhere. 
We just got to find out what's right for us, for the 
communities that live here, for the people that live here, what 
they want, I mean, at the service of those people. I mean, 
that's what we're in the business for.
    Mr. Vidal. I gave you several areas to consider but let me 
concentrate on a couple. And one of them, having built a lot of 
highway projects in the State of Colorado and the change in 
scope and price, I got to tell you that we work a lot with 
long-range plans. It's very difficult for a 20-year plan to 
accurately predict what I-70 West would cost. And so, I think 
that we need to be careful with that scope issue because a lot 
of times you need to actually be in the design of the project 
before you can actually get to what's the actual cost. But 
perhaps some research on what are some best practices on 
scoping projects for long-range plans is probably an important 
piece.
    But I would just want to comment that part of what I see as 
the problem, having worked in the transportation field now for 
30 years, it's difficult to articulate what the heck our goal 
is. What is it that we're trying to achieve in our 
transportation system? Is it that we are trying to get off use 
of the gasoline because that would certainly necessitate 
something. Are we, you know, are we--what exactly is it that we 
trying to do? And I can tell you right now we have no clue what 
are congestion relief goals in urbanized areas. There is no 
place in the country right now that measures the congestion and 
what it means. What is it, what is the, you know, we have 
levels of service, you know, A through F, but we really don't 
talk about what can we do to relieve congestion, what is an 
achievable goal that we should go after. And that's why I would 
say we really need to do some research on how do we deal with 
congestion relief? How do we come up with a congestion relief 
management system as we have done with maintenance?
    And a lot of times, we talk about maintenance as, you know, 
when we talk about maintenance, we talk about the structural 
value of the inventory. You know, what's the pavement 
structure? What's the bridge structure? And that's what we talk 
about under maintenance. We never talk about the de-grading of 
the levels of service of that road due to congestion. And so, 
it really is an area that we're not spending any time on and 
it's hard to articulate what we should do. I would submit to 
you that I think for the urbanized areas, trying to come up 
with some measurements for congestion and how to budget money 
for congestion and what it means to do so will help.
    And I think last but not the least, we clearly under-state 
or we don't talk enough about how badly we're under-funding our 
transportation systems. You know, we--not only are we not 
really clear about what the goal is, but we're really not 
talking about how much money it would really take us to meet 
that goal we're trying to achieve. And in many cases--yeah, I 
can tell you building highways in a metropolitan area, the day 
we opened them they were already at overcapacity, you know, and 
so--and I'm sure that's the same way all over the Nation. So 
we're clearly under-funding in this area and we can't really 
articulate what it is what we're trying to achieve especially 
on the congestion relief side.
    Mr. Calvert. Mr. Udall.
    Mr. Udall. Thank you. I have to hold myself in check 
because with so many people here from the 2nd district and all 
of us who live along the 36th quarter on the I-70--and 
concerned about I-70, I want to talk about all the specific 
problems and the dynamics that are at play right now. And we 
hopefully will have some more time to do that but I also want 
to--as the Chairman has done, focus on the research needs and 
the overall efforts that we've put forth. And, again, the panel 
has been very helpful in that regard.
    Mr. Luber, Mr. Hernandez, you've talked, and I want to 
direct this to Dr. Silverstein, about being area or regional-
specific in our research. And can you talk a little bit about 
that, particularly, in terms of the mission you have but also 
are we doing enough of that when we deploy these dollars? Do we 
look at the regions? And are there other formulas that are 
useful countrywide that are applicable in any metropolitan area 
or in any multi-modal situation?
    Dr. Silverstein. I think both. Certainly the current 
Department of Transportation policy of partnering with regional 
transportation agencies is very, very important in 
understanding that a lot of transportation problems, I think, 
have to be solved in a regional context. I'm an environmental 
engineer and certainly one of the things that I've observed and 
just thinking about as we're talking today, we have a 
tremendous impact on the environment just because we've paved 
so much of it. I'm on the board of a foundation in California 
that's looking at the impacts of beach closures in Southern 
California which is very, very significant to towns like 
Huntington Beach. And part of those beach closures stem from 
runoff, urban storm water runoff. So that kind of 
relationship--what I'm talking about is the importance of 
regional considerations when you're looking at transportation 
systems and solutions to transportation.
    On the other hand, I believe that some of the tools and 
methods you use to develop regional solutions are portable. And 
so you can generalize on the tools that you develop and take 
them to other regions or even internationally, provided that 
you understand what are the local aspects that are there on the 
project and what are the portable aspects that are there on the 
project.
    We can--people on our construction engineering management 
group are looking at the ways that projects have been financed 
in Europe that encourage sustainable or so called ``green 
transportation systems,'' and economic incentives for green 
development. Not certainly a portable concept as long as it 
applies to our own market-based system of making choices for 
building projects. So I believe in the importance of developing 
solutions in the context of regions and regional environments 
but I also believe in the idea that we can learn from each 
other in various parts of the world.
    Mr. Udall. Mr. Hernandez, you want to comment?
    Mr. Hernandez. Sure.
    I think there's definitely applicable research that could 
happen in Colorado that can affect other areas. Give you a 
specific example. University of California, Riverside is 
getting ready to expand their campus across a major arterial 
beltway. And they're trying to deal with how do you get 
pedestrian activity--students across both sides of this major 
highway. They came to Boulder and looked in an example of 
Boulder in Broadway. And what we've done in Broadway is built a 
spectacular underpass so that the students on University Hill 
can walk to the campus and vice versa. Professors can go up on 
the hill and get lunch. University of California, Riverside 
took that example to heart and now they're designing their 
campus with that integral part into that.
    So the examples that we have in this region can provide 
case studies for other areas. I also think that regionally as 
well, Aurora is not exactly going to do what Boulder's going to 
do and we know that. But there's things in terms of congestion 
management techniques that could work for both places, that 
could work in Austin, Texas, that could work in Davis, 
California, that could work in Redmond, Washington. So, yes, 
these examples can apply across the board.
    Mr. Luber. And as Mr. Hernandez said, Boulder's going to 
want something different than downtown Denver. And the research 
should be, what do these people in these communities--how do we 
get these people around their city. So let's get people around 
there around people in downtown Denver and then connect them. 
Get people around Broomfield. So let's find out how to get 
these people--because it'll be different for the people that 
live inside of Boulder, they'll want a different way than in 
downtown Denver with the 16th Street Mall or how they are going 
to walk around--there'll be a lot more walking around the 16th 
Street Mall than there will be in Littleton just because of the 
wide open spaces. So we just got to find a way to get those 
people moving in those communities and then link those 
communities together.
    Mr. Udall. If we do too much of that, are we going to put 
you out of work?
    Mr. Luber. Yes. I guess in a perfect world, yeah. I mean, 
you would have that. I mean, like in a perfect world, nobody 
would speed and the police wouldn't be able to get that 
revenue.
    Mr. Udall. I guess I owe you an apology.
    Mr. Luber. Those speed control vans wouldn't be around. 
But, you know--yeah. I mean, we're always going to have, 
especially as Bill keeps talking about, in the congestion 
times, the morning and afternoon rushes to work and to home and 
that sort of thing, or to a Broncos game or to a Rockies' game, 
obviously we're going to have those issues. Right now, I'm 
sure, traffic is sailing along the Boulder turnpike if there's 
no accidents or stalls out here. I mean that's just the way it 
is. So we're looking at ways to get people around efficiently, 
easily, especially in a congestion--in most congested times of 
the day. And that's really what we're looking at.
    Mr. Calvert. When we solve all these traffic problems, 
you'll get into politics.
    Mr. Luber. Okay.
    Mr. Calvert. Perfectly.
    I congratulate the panel. You've done your homework. I 
represent the University of California, Riverside and I also 
represent part of the coastal communities in Southern 
California, so that's great.
    One of the other issues that, obviously, we're concerned 
about as a committee when we do this research is that it's 
practical. I mean, that we can get--you know, we do a lot of 
things in Congress that's somewhat visionary but when it gets 
down to transportation or water issues--I chair the Water 
Committee--at the end of the day, we've got to do something 
that works and works for the tax payer in the most efficient 
and effective way possible. And the research that's been done 
to date by the Federal Government, has it been practical? Has 
it been effective has it been efficient? And are there ways 
that--obviously, that I surely would think that there would 
be--ways that we can improve that to make sure that it works 
here in the Denver area or in Chicago or in New York or 
wherever we're doing that research.
    Mr. Vidal.
    Mr. Vidal. I think a lot of money has been invested in 
doing research on materials, improving construction methods, 
standards. And that research has been tremendous. I think, you 
know, every transportation department around the country really 
benefits from that and you have a certain amount of 
standardization and expectation that's, I think, been 
incredibly valuable. I think on the planning side, it's pretty 
poor and I think that's probably where we need to spend some 
money.
    And, you know, I articulated a few things but I can tell 
you--and I've seen this from the DOT side and then from the MPO 
side--ISTEA has language about collaborative and cooperative 
planning and resource allocation, all of those things. I think 
only a state or two have figured out exactly what that means. 
And I think that those are the areas on the planning side that 
I think we can spend some money, what are best practices, you 
know, where are some of the partnerships working, where is 
integrated planning that considers land use and transit with 
highways being done, how is it working effectively? Because I 
think right now, every state is kind of up to their own doing 
and I just don't think there is that resource to get those best 
practices, and to figure out how that should be done, and how 
do you form those partnerships.
    Mr. Calvert. You see much money being spent in research on 
traffic management. For instance, you know, I have to go back 
to my own experiences. When we had the Olympics in Los Angeles, 
everybody was horrified that L.A. would be more at gridlock 
than it already is. But remarkably, they spent a tremendous 
amount of time to work with the trucking companies, working 
with commuters, working with major employers to stagger times 
when people went to work and so forth. And it worked. And then 
after the Olympics is over, it all went back to what it was.
    Mr. Vidal. Exactly. Exactly.
    Mr. Calvert. And, you know, it had the same, I think, issue 
in Atlanta. And then so--I mean, I think that probably a normal 
citizen will think, ``Well, why don't we do this all the 
time?''
    Mr. Vidal. I think there's a--when I was with CDOT, I had 
to manage the traffic control and crowd control for the Pope's 
visit when he came here in '93 on the state highway system. 
Actually, I'm Catholic. My mom was always sorry I didn't become 
a priest but she was really proud that I actually helped the 
Pope. So that was a--but----
    Mr. Calvert. You're a good son.
    Mr. Vidal. Yeah. But having said that, you know, the reason 
it worked is you scare the crap out of everybody that it's 
really going to be crowded and people listen. So for those 
special events, everybody knows, yeah, we're going to have to 
do something different. What I see happening--and that's where 
I mentioned in here about researching the value of the TDM 
strategies is that since there's such few dollars and there's 
such competition for dollars, they're all either going to go to 
highways or transit.
    We haven't figured out a way to articulate the value of 
these strategies on a permanent basis, that if you do this, 
this is how it's going to reduce traffic congestion or what 
have you. And that's an area that I think we need to work on 
because right now, the TDM strategies are left to the new--it's 
almost a marketing strategy. Can you convince somebody to do 
it? But there's no particular mandate, there's no particular 
incentive, there's nothing tied to doing that. So you'll get it 
on special occasions or during a crisis situation, but you just 
don't get it on the regular basis and then the competition of 
the dollars just goes to the two main venues that we end up 
talking about.
    Mr. Calvert. Any other comments about it?
    Mr. Hernandez. I just want to say a few things on research. 
And the first thing hasn't been said. The research that we're 
talking about is to help out people that are, like, working 
upstairs right now, people in Engineering and Public Works and 
Planning Department. They need a resource they can pull off the 
shelf when they're reviewing a plan, when they're reviewing a 
land use decision that has 30 homes that says, ``Oh, here's 
what happened in Palo Alto, California and this was the 
implication of this decision.'' They need a resource like that. 
We're not talking about huge, large capital dollar expenditure 
or research grants. We're talking about things that you could 
spend a reasonable amount of money on and have a big impact.
    The second part is we're in, kind of, a new era of 
research. I work with city planners and engineers everyday. And 
most of the research that they go to is no longer from the 
shelf. They go to the internet for research. They go to photo 
examples. They go for live cams on state highways that show 
traffic congestion, that show all different types of factors. 
So the research that we're going to do in this next era, with 
this next reauthorization of the bill, is going to be different 
than we've done previously. That might lead to better results 
because that what you and I've been asking questions on, how 
are we actually going to get the bang for the buck. And using 
this new technology that's around, we're going to get a lot of 
bang for the buck on it.
    Dr. Silverstein. I think one of the interesting things 
about--and we see this in university research all the time is 
how do you disseminate your work. And we've talked about things 
like decision support where fundamental research can be used in 
the service of professional decision-makers and planners. But I 
think there needs to be another step of outreach where research 
is shared with the general public. And there's communication of 
research, active communication of research with all of the 
stakeholders that are involved in transportation planning. And 
I think that's an area where we really haven't done a lot of 
work exploring all the methods that we can use to do that well.
    Mr. Calvert. Mr. Udall.
    Mr. Udall. We were just talking about this concept of 
intelligent transportation system technologies. And they've 
been heralded as providing some real time solutions. And I 
don't know if that's really the case or not and I wondered if 
the panel would be willing to share their opinion. We'll start 
with Mr. Hernandez, Mr. Luber, and Dr. Silverstein.
    Bill's always got an opinion so...
    Mr. Hernandez. They're working. We could get online right 
now and find out when the next speed bus is going to arrive at 
the Broomfield Park and Ride within 30 seconds. We could find 
out when the next bus would be around right after our lunch 
appointment. So the ITS systems that were developed in a highly 
sophisticated level trickle down into all types of 
transportation modes now. In terms of, we're talking about the 
Breckenridge example, they use ITS during the day and in the 
evening. So when you get off the gondola at the end of the day 
and you get to the parking lot, there's a sign and it tells you 
the congestion at I-70. So you know that you could decide, 
should I stay in town and have dinner? Or is the congestion at 
I-70 really low and should I go now? The joke that various 
resource programs assigned will say that congestion's always 
bad on I-70 so everyone stays in town and eats. But the idea 
is, is that----
    Mr. Udall. How is that metric expressed? Is it and hour 
away toward--is there different levels of congestions that.
    Mr. Hernandez. Yeah. I mean, in terms of congestion, it's 
all relative, right?
    Mr. Udall. Yeah.
    Mr. Hernandez. But the way that they program signage and 
the way that they actually plan the systems, this technology is 
very accessible.
    Mr. Udall. Dr. Silverstein, do you have----
    Dr. Silverstein. I think the other the issue that--I think 
that's very important as well. Intelligent system is a result 
of all of the IT developments in the last decade or so and 
really can be important. And the other is the possibility for 
control systems and expert systems. So that would be the next 
level. We have one level which is monitoring and sharing 
information, things like letting people know about congestion 
or where a bus is. But then we have the next level where a 
system could perhaps be programmed to actually respond and 
change the way it's operating based on specific conditions at 
any time. And I think that's an area for future research. 
Certainly that's not implemented across the board but, again, 
it gets into that--it speaks to the flexibility that I think 
will improve people's feelings about the responsiveness of 
their transportation systems to their needs.
    Mr. Luber. Yeah. I mean, I'm obviously in the communication 
business, information sharing business. For me, it is vital for 
the drivers to understand what's going on ahead of them.
    If you've never been stuck in traffic--and I'm sure 
everybody has--you just want to know, is that an accident, is 
that a stall, or is it just the regular every day slowdown that 
I'm dealing with. And that's obviously what I do for a living.
    And so variable message signs are a great way, I've seen 
some cities--we have some of those, they kind of tell you if 
there's a big accident or a highway closure. We could have more 
of those that just alerts the drivers even if it's just some 
congestion ahead: 15-minute travel time from where you are now 
to get to, let's say, downtown Denver.
    The CDOT website is outstanding in its development of 
getting information to travelers before they even leave the 
house. They have a speed meter where they have sensors, road 
sensors that measures volume, speed. That could be expanded to 
many more of the highways than it is now. They have some 
cameras that show traffic that could be delivered--it's already 
delivered to the TV stations where they can get live video from 
that. On the website, they could also either deliver what? Live 
video or more frequent updates. Delivered to your cell phones. 
People have the GPS units now in new cars. Traffic information 
could be sent out from CDOT or from whomever. It could be a 
partnership with a broadcast station like mine that then sends 
out a signal to a cell phone and that says, ``Hey, you're going 
to have the backup just ahead,'' that kind of a thing.
    It's just all about information. The more information 
somebody has--if we're just going to be doing information and 
we want to obviously wait on wider roads or more transit and 
that sort of thing. Information is a big key especially in 
these sort of things.
    Mr. Udall. Bill, do you have any experience with----
    Mr. Vidal. Yeah. I think----
    Mr. Udall. Trails and transportation?
    Mr. Vidal. I think a lot and we probably all have had an 
opinion on traffic signal timing, for example, and 
coordination. I think there's two answers to this. And one is 
the importance of having good information and how good that is 
and how important it is that you know the next bus that's 
going, coming or you know, that's congestion--and that's one 
piece of it.
    I think the other piece is optimizing the performance of 
that corridor. And unfortunately that continuously needs to be 
done. A lot of citizens don't notice it because it's 
incremental improvement. And so it might be, you're sitting at 
a signal light 10 seconds shorter, you know, kind of thing.
    Or--so I'd like to see some research concentrating on that 
optimization of the corridor itself. I mean, it's great to have 
information but knowing why I'm in the jam doesn't change that 
I'm still in the jam, you know, that it just says that I know 
why.
    So I think the two areas to look at is definitely incident 
management which continues to be an issue that how do we get 
those traffic accidents off that corridor as quickly as 
possible? How do we do it legally, how do you coordinate the 
law enforcement agencies, the EMTS, and all of those people 
that move those incidents off the road?
    And then the other is, just going back to traffic signal 
timing, clearly we need to continue the smart signals so that 
you can have the different signal timing for different times of 
the day. Clearly, most of our signal timing is done for rush 
hour traffic but that changes at 10 o'clock in the morning and 
so on. So I think the development of those kinds of technology 
is still important to pursue.
    Mr. Calvert. I'd like to just follow up on these concepts 
here because I'm sure there's people out in the audience and 
people probably watching would say, ``Why are we spending any 
money on research?'' I'm going to ask the question just because 
I'm sure there are folks out there. ``Why don't we spend every 
nickel on adding lanes and adding more highways rather than 
spending money on research because, simplistically, if we add 
more lanes, doesn't that relieve congestion?'' And I guess that 
would bring this question: ``What has research told us about 
the effect of expanding highways and roads on congestion? Does 
that help?''
    Mr. Luber. Well, it's kind of like--yeah. The field of 
dreams, that if you build it, they would come. If you're going 
to build a highway as we talked about, people will drive on it 
as----
    Mr. Calvert. (Unintelligible) I used to have a saying on 
the water, well, don't build it, they come anyway.
    Mr. Luber. Yes.
    Mr. Calvert. And they do.
    Mr. Luber. Yes, they do. Exactly.
    Let me--and obviously, we've talked about, I addressed that 
in my opening statement is, there are some areas that you can't 
expand the highway to 15 lanes. And they've tried it in Atlanta 
and then the highway is still jam-packed during rush hour. It's 
unbelievable. If you've ever been in downtown Atlanta and you 
have 16 lanes of highway right there and it is still jammed 
solid. It is really unbelievable.
    Mr. Vidal. I also think that there's not enough information 
on the kinds of land use that accompany the kinds of 
transportation solutions. If you're going to build a 16-lane 
highway, I can tell you even a six-lane highway, you're going 
to really affect the livability of the community you're going 
through. And I think that that's a conflict that we have right 
now in understanding what the consequences, I think specially 
in urbanized areas, what the consequences of the different 
techniques are.
    The other is, we have no real clear understanding of what 
it costs to widen lanes and we always--those comparisons with 
transit always come out well but, you know, I've done this 
alternative selection often. When you consider transit, you've 
got to consider the cost of the vehicle, the vehicle itself, 
where it's going to be stored, the cost of operating that 
vehicle. When you consider highways, you're just considering 
the concrete and asphalt so we have a misconception of ``Gees, 
you know, we got a lot of money, let's just put it in to more 
lanes because that's the easiest thing to do.'' And the fact 
is, in the urbanized areas, it may be the most expensive thing 
to do. And again, I think we need to figure out a way to 
communicate what does each form of transportation encourage in 
terms of land use, effects on the livability of communities, 
and what's the real cost to differentiate between the two.
    Mr. Calvert. Mr. Udall.
    Mr. Udall. Let me, if I could, talk about a particular 
problem not only in the I-70 corridor but most corridors had 
some noise. And we hear a lot about noise and it fits what Mr. 
Vidal's talking about in terms of livability. Bill right now is 
really feeling like they have to do something because the noise 
is really plaguing people both who live there and people who 
visit. Bill, what do we know about noise technologies? I know 
there's--noise is created more by, I believe, tires on the 
roadway than the sounds of engines and/or the cars' movement 
through the air. Could you share with me the ideas that are out 
there and maybe any successes, and I'm looking at Mr. Hernandez 
and Dr. Silverstein in that regard.
    Mr. Hernandez. Sure. In the Vail corridor, especially one 
of the big issues is the ``jake brake'' issue. So, that's the 
largest source of noise. Tires obviously are another, but 
``jake brakes'' are pretty large. You know, on the noise issue, 
from a local community's standpoint, I now use Crested Butte as 
an example because it worked in Crested Butte. We looked at a 
study that talked about having buses circulate between the town 
of Crested Butte and mountain Crested Butte versus a having a 
gondola system and the decibel differences that we presented to 
the public in the alternatives made it become one of the most 
feasible options for the study.
    So, I think that the sound considerations are huge. When 
the people are thinking about the long-term livability of their 
community, but I don't--I'm not an expert on pavement 
technology or decibel readings, but I know that when we work in 
communities and we talk about bus transit systems, the 
conversation always comes up about diesel motors and about the 
decibel ratings of those vehicles. And we try to present 
alternatives for all different types of fueled vehicles to 
eliminate the decibel concerns.
    Mr. Calvert. I'm curious, we have all, I think, spent some 
time in the Crested Butte area. Are you suggesting that gondola 
was a better, more cost-effective, quieter option or was it the 
buses back and forth between the two towns?
    Mr. Hernandez. Actually--yeah, during that study, what we 
looked at was the feasibility of connecting the two areas 
together. And the public really caught on to the concept of 
loud diesel buses between these two areas would have a large 
impact. Diesel buses would be sitting in traffic stream of the 
people trying to get back and forth. And so, when we presented 
the third alternative which was the sound and noise, they 
really caught on to the gondola concept, but obviously there 
were environmental impacts associated with running a gondola 
between some pretty serious wetlands between the two areas. 
Likewise, Breckenridge is dealing with that same issue of, ``Do 
we do gondola, or do we do bus to get people from the town up 
to the mountain?''--Same wetland issues, but they've also 
talked about what a transit center would really feel like in 
downtown Breckenridge with noise, with emissions and so forth 
and have a look at other options such as gondolas.
    Mr. Calvert. So, both towns are still in the process of 
determining what option they might embrace?
    Mr. Hernandez. And a hooky here. So, what we did was we 
looked at Telluride, because Telluride has the gondola that 
carries people back and forth. We looked at Park City--we 
looked at areas that had built systems and used that for our 
pair of examples. So that's why the research is really 
important to that problem.
    Mr. Calvert. Dr. Silverstein, do you have experience in 
this area with noise.
    Dr. Silverstein. I was just reflecting that--so noise is 
not my area--but noise is similar, I think in some ways to 
odor, which is very close to my area as an environmental 
engineer. And it's kind of the unseen ``sleeper'' problem that 
always comes up around particular things like wastewater 
treatment projects and noise, same thing around highway 
projects. It's not the first thing you think about when you 
think about the impact of a transportation project.
    And I really agree that research is important in 
considering then mitigating. You can have technical solutions 
which involve vehicles, roadways, noise barriers that do the 
source control for the noise. You also can deal with planning 
issues like separation of the source of the noise, the 
highway--in a particular case where a train--from where people 
are living. And those are decisions that need to be made in a 
kind of a balancing mode, I think with active participation of 
the public and all these decisions are made.
    Mr. Vidal. Just to live up to my reputation of having an 
opinion on everything.
    Mr. Udall. Who said that?
    Mr. Vidal. You did, Mark, but having built some barriers in 
my career, it's funny, because I think this is one that the 
technological solution, because there are things you could do 
to the pavement or, you know, the road itself, there's a 
psychological factor with noise and livability. And just so you 
know, the design criteria for the height of a noise barrier is 
a six-foot person standing on their patio looking at the 
highway and where do you plan on putting the barrier, and then 
you look into the point that it intersects their line of sight.
    And so, there is a psychological aspect to noise mitigation 
that has really nothing to do with technology of whether or not 
you make the road quieter. It's just the perception of traffic 
coming closer or there's more of it to your backyard. And so, 
the solutions for noise sometimes are more psychological than 
they are technical.
    Mr. Udall. So you're saying this relates between the visual 
proximity to the highway or the sense that the traffic is close 
to you and that affects your sense of----
    Mr. Vidal. Right.
    Mr. Udall.--sound?
    Mr. Vidal. Exactly. If you live right next to that highway, 
the fact that you see more traffic on it or that a lane was 
added that brought it closer to your house, you are naturally 
going to perceive that it's going to be noisier. And it may 
more than likely will be. They may not exceed the 65-decibel 
barrier that we have for noise barrier, but there's a 
psychological, ``I have been--my property has been damaged as a 
result of the increasing traffic or bringing traffic closer to 
me.''
    Mr. Calvert. So, you have--oh, yes.
    Dr. Silverstein. I just wanted to bring up another issue 
that I've seen some research in that's also similar to noise 
and that's light pollution. Obviously, transportation 
facilities, particularly highways light use is a major safety 
concern, but on the other hand, for people who live near these 
systems, light contamination is a very, very strong 
psychological factor in their response to the impact of the 
system. And another area for interesting research is finding 
ways to light these systems that don't result in impacting 
neighborhoods that are near highways or transit systems.
    Mr. Calvert. I have one more question for Mr. Vidal. You 
mentioned something in your testimony that kind of reminded me 
as something. I was in China a number of years ago for the 
first time. I think it was 27 years ago. And I remember they 
put me up in this very nice place and it came to my attention 
that some people were more equal in China than others. And so, 
you mentioned that some miles are more equal than others and I 
wonder what you meant by that and what kind of research should 
go into that.
    I think I understand where you're going with this, but as 
the regions pay taxes, as you know, states pay taxes and the 
feds pay taxes, we all pay taxes--and we start making decisions 
on where that money should go. And of course, from our own 
parochial interest, we wanted it to go--where it does the 2nd 
District of Colorado the most good, or 44th Congressional 
District of California, but there may be areas in which they 
have more necessity than others. So, I suspect that's where 
you're going, but why don't you ask--answer the question?
    Mr. Vidal. I think, you know, again, having been with CDOT 
for 23 years, having been a Director, being around other 
directors of DOT, the tendency by Departments of 
Transportation, which are on the most part highway departments, 
is the argument that maintenance of the system has to be at a 
higher level of priority than everything else.
    And so, I mentioned that here in Colorado, maintenance of 
the system has a higher priority than dealing with congestion 
relief. And I think that if that's the philosophy that's going 
to continue, I'm just arguing that perhaps it's not maintenance 
of the whole system that needs to take priority over everything 
else but maintenance of the key elements of the system so that, 
you know, for example, congested roads have a higher 
maintenance standard than lesser-congested roads, or farm-to-
market roads should have a higher standard than just railroads 
or, you know, truck routes should have a higher standard than 
non-truck routes. To at least find a better balance between 
this argument or not, we have to maintain our existing 
infrastructure and deal with congestion.
    Colorado has 22,000 miles of state highway and I just would 
submit to you that not all of them are equal. And not--the 
maintenance of every 22,000 of those miles should exceed saved 
in with congestion in the metropolitan area. And so, I'm just 
thinking that maybe there should be a tiered system with 
different maintenance levels where you can argue what's the 
imperative maintenance level for that system.
    Mr. Calvert. Any additional questions, Mr. Udall? The 
people from the audience you would like to recognize?
    Mr. Udall. You know, I don't know that we've given the 
representative of CDOT a chance to prepare but I would ask 
unanimous consent that CDOT be included in the record of this 
hearing and in regards to asking questions of the panelists or 
including its own statement and its own--providing its own 
perspective on how we direct this research to others and what 
conclusions CDOT has gone through its years of work here in 
Colorado.
    Mr. Calvert. If the gentleman would like to come forward 
and state his name for the record and his address, he certainly 
could answer your question. You're all ready to go.
    You don't want to push him on the spot. You're his 
constituent, so we're not going to put you on the spot. Would 
you like to just come up and please state your name for the 
record and your address?
    Mr. Griffin. I'm Rich Griffin. I'm in charge of the 
research program at the Colorado Department of Transportation. 
And I just got word of this conference or this meeting about a 
day ago, and so I had to--checked that I shouldn't even be 
coming here, but I'm here and I just wanted to observe. I'll 
make some general comments that CDOT is very sensitive to the 
issue of measuring congestion. That's one of our emphasis 
areas, to come up with performance measures for congestion. So, 
that's right on target with what Mr. Vidal has said.
    I'd also like to say that there is--we have some broader 
interest besides just congestion. Some of our strategic areas 
for research--or if we feel this is at a national level 2 of 
safety, there's a lot of people dying on the highways, 40,000 a 
year or plus on that end--there needs to be some serious focus 
on research in those areas, too.
    Mr. Calvert. Thank you, gentleman. Any questions for----
    Mr. Udall. I would thank you for being here and for CDOT's 
interest and involvement and again, please pass on our regards 
to Director Norton and we would leave the record open for 
comments, additional questions from the panelists. We 
understand that CDOT plays a crucial role on these research 
dollars and our transportation systems and our quality of life 
here in Colorado. Thanks for being here with us today.
    Mr. Chairman, do we have other members who might want to 
speak before, you might want to make a final statement?
    Mr. Calvert. If the gentleman would state his name and 
address?
    Mr. Rapp. Yes. My name is Ed Rapp and I'm from the 
corridor. I'm a retired Federal Officer and a retired College 
Professor and a retired County Commissioner from Ouray, and I 
want to comment about some of the things particularly looking 
at the research that you all must come to grips with. And I 
think an essential research question, as simple as it might be 
is, ``What do we do when the well starts to run dry?'' Eighty-
five percent of all of the funds or all the cost of 
transportation are tied up in energy, principally around oil, 
whether it's to run the vehicles or asphalt, which is the 
primary concern with the planning that affects the outcome for 
transportation of children who are now born in Colorado.
    And that transportation cannot be solely dependent on 
petroleum. It has to be a broader thought. We've gone through a 
couple of TEAs, you know, ISTEA, TEA-2, and now you are 
considering a very important transportation rules of the game 
for the next five years. If you take the I-70 sample and listen 
to CDOT, CDOT's event is to--it makes it wider and blacker. 
That won't work. We have to step back and make another 
assessment of what transportation will be in the future. And 
wider and blacker won't cut it. You take up--you won't be able 
to make anything wider and blacker on I-70 for 10 years and 
then through Clear Creek County where I serve as $1-a-year 
County Engineer. That's a 14-year construction period. At the 
end of that 14-year construction period, with the new widened 
highway, the hours of congestion quadruple.
    In other words, we're going backwards. And I urge you to 
put research into a new mode or an additional mode and that is 
high-speed inter-city mode of transportation. Probably the FTA 
mode and the things that FTA is researching fit better in the 
mountains, that's a lightweight, medium-speed, 120-miles-an-
hour max speed systems. They probably fit better with the 
mountain and FRA models probably fit better in the East and on 
the Coast. But we need a very agile, fast, relatively 
environmentally sound system. And there are numbers that are 
now emerging to be deployable.
    I think that in the next five years we would be making 
decisions in Colorado about which system to deploy along I-70. 
Contrary to the anecdotal information you've heard, both that 
will be a necessity because we can't suffer to commit the 
citizens along I-70 to give up their first home so that someone 
can get to their ski area four hours later by car 20 years from 
now. Or give up their first home so that somebody from the 
Denver Basin can get to their second home four hours later than 
they are currently able to do with a highway-only solution. 
Given the energy crunch, we have to get a lot more traffic 
throughput on a very narrow right-of-way and a high-speed 
monorail will give you an equivalent of eight Snow Cat lanes as 
opposed to highway widening, which gives you two additional 
lanes, one in each direction.
    So that--it just does not make sense that we don't begin to 
really look at these aspects of that kind of an intermodal 
system. And that's the deployability of the existing systems. 
You have the German system, which was deployed in Beijing, 
probably too big, too heavy for our situation. You have the 
HSST in Japan, HSST-2 would work beautifully but it needs to 
come forward a bit more in deployability. We have several that 
exist in this country that are probably four years away from 
deployability.
    We have one system that has a great potential, but it 
doesn't have any corporate sponsor and NASA--the Spanish 
system, called Eurotran Montebega, which was tested about 20 
years ago and a steel version probably could be brought forth--
very inexpensive, but it's those deployabilities that need to 
be researched. The constructability needs to be researched 
whether the system is able to be constructed over itself as you 
move through the territory, putting in pylons and then 
constructing the girders. The maintainability--the system that 
is in Beijing, I doubt, is something that we would want to buy 
in the mountains because of its maintainability. It does not 
make sense to have an active guideway and passive vehicles 
because you can't get the active guideway out of the system in 
order to work on it. It needs to be active vehicles on passive 
guideways just like our highways are active vehicles on 
guideways. So, the maintainability is important.
    And then I urge you to do research on commercialization, 
into and along, and with this high-speed inter-city rail. And 
then we'll call it high-speed monorail. Thank you, gentlemen.
    Mr. Calvert. Thank you, gentleman.
    Mr. Rapp. Thank you very much.
    Mr. Calvert. On one point I'd just like to add that in the 
bill itself there is discussion and it maybe approved to build 
a test Maglev bed between Southern California and Las Vegas, 
somewhat controversial, but the State of Nevada and some 
interests in Las Vegas are willing to pay the majority of the 
cost. So, that is a test bed for Maglev similar to the German 
system and the rail system was built between Beijing and 
Shanghai, which may be an interesting test bed for that type of 
facility.
    Mr. Rapp. Congressman Calvert, I believe that we are at the 
tipping point or very close to it, where we may have 
entrepreneurs step forward with international consortium with a 
large amount of money, willing to do something like E-470, but 
in fact, being a high-speed monorail. And I hope that the bill 
will be receptive to that sort of thing, because looking at the 
long-term cost, that looks like the way to go. Thank you, sir.
    Mr. Calvert. Thank you, gentleman. Any closing statements, 
Mr. Udall? Any other comments? Maybe a short statement because 
I've got to get on that highway of yours to the Denver Airport.
    Gentleman, please state your name and address for the 
record.
    Mr. Fowler. My name is Hugh Fowler. I'm from Denver. And I 
served for five years with Colonel Rapp on the CIFGA, Colorado 
Intermountain Fixed Guideway Authority, which was set up by a 
legislation to do something about the I-70 corridor. I came to 
Boulder in 1944 in the Navy on a train, and it cost about $0.75 
from Denver although the Navy was paying for it. A bus from 
Denver in those days was about $0.50, so--but it took at one-
time all of (unintelligible) the train got there in about an 
hour.
    And the team that I had--I'm interested in all of this 
because they spent five years in trying to figure out what to 
do about I-70 and I thought we had a pretty good idea but the 
problem of research, it's nice to be talking about research but 
when you have political influences, which can just throw them 
out then what are you going to do? How powerful does the 
research have to be in order to overcome these political 
decisions that are so awfully long? I called in length the 
decision by Governor Lamb here in 1973 to, as he said, ``Drive 
a silver spike through I-470,'' which was the Western link of 
the built highway around Denver. He was successful in driving 
the silver spike and it would be another seven or eight years 
before we got what we now have, which is C-470, not Interstate 
470, but a Colorado highway built with Colorado funds depending 
on an annual appropriation from Congress in order to get it 
done.
    Instead of using the $85 million of highway trust fund 
money that was already in the bank to build the damn thing and 
my--excuse me, I served in our own State Senate here for 12 
years. I was on the transportation committee for all of that 
time. We tried to do things; we did a rail plan in 1975 and 
said, ``Look, common sense says that we can no longer have coal 
trains going through Metropolitan Denver.'' They're still going 
through Metropolitan Denver today. But instead of 12 of them, 
there are 60 of them today. And can you imagine what that does, 
bisecting this huge metropolitan area with these coal trains 
with their own problems, the railroads took out one of the two 
rail lines to Colorado Springs which made it twice as difficult 
to get through.
    My appeal here is for some common sense and leadership. And 
I know both of you gentlemen are leaders in your field. And 
you've got to step up. Now what happened in 1955 when the 
traffic from Denver to Boulder, both are growing very rapidly 
with the university and a very large industrial sector going 
like crazy in Boulder also. Well, a famous highway engineer at 
the time, the main guy in CDOT, Department of Highways just 
took his marker pen and he goes, ``Here's Boulder, here's 
Denver, there is the new toll road.'' And they built it and 
they put a tollgate right over here in Broomfield. And they 
said, ``We're going to bomb this baby and we're going to pay 
for it in 20 years.'' Well, in less than 10 years, of course it 
was paid for because it was very successful, one of the first 
toll roads that had been built in years--and it was a model.
    And then in about seven or eight years later, of course it 
was paid for even though the toll had gone from $0.25 to 
$0.50--all of that. And so, what happened? They scraped the 
toll booths. What if they haven't done that? What if they 
continued asking $0.50 for each person? We could have financed 
a high-speed train from Denver to Boulder and probably on to 
Colorado Springs. Well, that's a common sense thing, isn't it? 
We didn't need any research to support that. We knew how many 
people are going to be driving it, but we had some people here 
who said, ``Oh no, it's not fair to the people in Boulder, they 
have to spend that money.'' Listen, we're not paying enough.
    And I'm sorry, as a Republican and I have to tell you that 
our gas tax is really cheap. And that gas tax has to be 
increased and that's another political matter. I don't know who 
has the courage to do it. But it's just like who has control of 
traffic in Denver? The trucking industry. We talk about moving 
and finally CDOT is thinking about moving the rails over East 
and they have the--the railroads themselves are willing to do 
this. Why not have a trucking alternative? We could start with 
470, the only trouble is that it dumps you--E-470, which is a 
toll road--Congressman Calvert, do you know about E-470?
    Mr. Calvert. A little bit.
    Mr. Fowler. It's the eastern part of the belt--absolutely 
private. I mean, it is not, you know, it was not built with 
state funds. It's a bonded highway being paid off, thank you, 
on schedule, with a toll collected automatically. A wonderful 
idea, but just don't use it why?--it's too expensive. They'd 
rather cause accidents. How many accidents are caused going 
through the Valley Highway through Denver because of the truck 
congestion? Well, those are common sense things. We don't need 
any research for that. We need some legislators and others who 
will go ``Hey, stand up and say, `Yes, this has got to be 
fixed. We'd take those trucks off of there.' '' Or at least 
take them off during the tragedy.
    Mr. Calvert. Okay. If the gentleman could just wrap--I've 
got.
    Mr. Fowler. Yes, I'm wrapping right now. I'm just asking 
you Congressman, I know you're interested in this. Keep it up 
and start embarrassing some of these people who just are 
letting all of these people get away with trying to do it on a 
cheap--it ain't cheap. It's going to be very expensive, but 
we've got to do it.
    Thank you very much. I appreciate it.
    Mr. Calvert. Thank you. Mr. Udall would like to do the 
closing statement?
    Mr. Udall. I just want to thank the previous two people who 
commented, Senator Fowler, great to have you here and I would 
look forward to sitting down with you and hearing more of your 
ideas and you have a sense of history and I appreciate your 
understanding. We've got to invest in our infrastructure. I 
have been one who had made the same points that you've made 
today that if we're going to maintain and improve our 
infrastructure or transportation infrastructure, we have to pay 
for it. And in paying for it, we have to look seriously at 
indexing the gas tax to inflation and I believe that would be a 
responsible way to proceed and we've had--we're having a debate 
in the Congress, we'll continue to have that debate.
    I also want to make sure that the record reflects my point 
of view, which is that right now I'm not convinced that we can 
either afford nor should we build additional lanes up through 
Clear Creek County. I don't know how we do it in a cost-
effective way and also maintain the quality of life of the 
people along that corridor and so we have to think very 
creatively and work with the communities along the corridor. 
Whether a Maglev or an elevated guideway system can actually do 
the job is something that has to be determined, but this is why 
this research is so important and I just didn't want to 
conclude by pointing out that in the fiscal year '03, we spent 
about $500 million in research and if you cost that out 
percentage-basis, it's a very small amount relative to the 
money that is spent on the projects. And so, I think this money 
is important. We have to continue to do the work that 
Congressman Calvert is leading to ensure that the dollars are 
efficiently used and put in the right places that they can make 
the most effect.
    And I want to, in that light thank the panel today, thank 
them for their forthcoming answers and for their testimony and 
I look forward to calling on them in the future here in 
Colorado, I think perhaps even at the National level as we get 
about the business of reauthorizing TEA-21. I think we're--was 
it ISTEA or T-LEU or it has any number of acronyms at this 
point. But that is good news that we're moving ahead. The job 
creation potential is enormous and in this day and age of 
competitive economic environment as well as the war on 
terrorism and all the other challenges our country faces, we 
have to have the best in transportation and transit systems in 
the world, frankly.
    With that, again I want to thank Congressman Calvert for 
taking time out of his schedule to come to Colorado. I know 
it's tough duty to visit Colorado, but I want to thank him for 
his leadership and I also acknowledge--Colonel, when you talked 
about new energy sources, Congressman Calvert and I have worked 
together, he was the lead sponsor and the author of the bill on 
hydrogen and promoting a hydrogen economy and we do have to 
look to make the pie much bigger. We're not going to wean 
ourselves from fossil fuels completely in the near future but 
we want to work in a way to take advantage of energy efficiency 
technologies or new renewable energy technologies that are out 
there as well as creating greater efficiencies with our fossil 
fuel supplies. And we take your comments to heart and thank you 
for standing up and sharing your point of view with us.
    So with that, again thanks to all the audience that has 
been here and to The City and County of Broomfield and Mayor 
Stuart. Thank you.
    Mr. Calvert. Thank you, Mr. Udall. And again, I want to 
thank this panel for your testimony. Certainly, transportation 
is an issue that's important throughout this country and 
certainly in here in Colorado. And obviously, I deal primarily 
with water issues in the House but water, transportation, clean 
air, all of these issues are extremely important to the quality 
of life for people here in Colorado and throughout the United 
States and so, hearings like this are important to get the 
viewpoints of folks throughout the country as we try to move 
good legislation.
    Hydrogen is the next energy economy we're going to move 
toward, that's going to take some time, though. And it's going 
to probably--but the infrastructure in this country is enormous 
to move to that new energy source, but that will happen. And 
new planning and new research as you move forward, you must 
remember that that is going to be the next energy source, I 
think and I think most people would agree with that.
    Certainly, when I was in the construction business we used 
to say, ``Make any changes on your plans. Don't try to do it 
while you're under construction.'' Change orders to the 
developer or to a contractor are music to your ears, I guess, 
but that's no way to save money. And so research is important. 
And you're right, Mr. Udall, we don't spend enough money on 
research and it's important because I think you get returns 
beyond the small investment that you make.
    So, I want to thank you for having me out here. I thank the 
community for being such good hosts and I look forward to 
coming back to Colorado in a more social engagement. So, thank 
you very much. We are adjourned.
    [Whereupon, the Committee was adjourned.]

</pre></body></html>
